                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General




Office of Inspector General
                              Semiannual Report to the Congress

                              April 1, 2005 to September 30, 2005
                                     Summary of OIG Accomplishments

Financial Results:
Questioned costs
      Issued during the reporting period                                      $ 6,340,000
      Management decision during the reporting period                         $ 0

Recommendations for funds to be put to better use
     Issued during the reporting period                                       $ 0           Fraud, Waste, Abuse or Mismanagement
     Management decision during the reporting period                          $ 0                        of Federal programs
                                                                                                    and resources hurts everyone.
Investigative recoveries                                                      $ 2,177,574
                                                                                                 Call the Office of Inspector General
                                                                                                              HOTLINE
Investigative Results:                                                                                       202/647-3320
Cases opened                                                                   22                         or 1-800-409-9926
Cases closed                                                                   18                  or e-mail oighotline@state.gov
Judicial actions                                                               37               to report illegal or wasteful activities.
Administrative actions                                                         15
Hotline and complaint activity                                                220                      You may also write to
                                                                                                     Office of Inspector General
Reports Issued:                                                                 88                     U.S. Department of tate
                                                                                                        Post Office Box 9778
                                                                                                        Arlington, VA 22219
                                                                                               Please Visit our website at oig.state.gov

                                                                                                  Cables to the Inspector General
                                                                                                 should be slugged “OIG Channel”
                                                                                                     to ensure confidentiality.
                                 Pictured on the front cover: Embassy Singapore


                                 Requests for additional copies of this publication
                                 should be addressed to:
                                           Office of Inspector General
                                            U.S. Department of State
                                            OIG/EX/PPR, Room 810
                                            1700 North Moore Street
                                               Arlington, VA 22209


                                      Department of State Publication 11286
                                           Office of Inspector General
                                      TABLE OF CONTENTS




DEPARTMENT OF STATE
Letter to the Secretary of State
	
Executive Summary....................................................................................................... 5
Security.......................................................................................................................... 11
Audits .......................................................................................................................... 13
Inspections ................................................................................................................... 27
Information Technology................................................................................................	 47
Investigations................................................................................................................	 57
	     Appendix 1: Investigative Activities..................................................................	 65
	     Appendix 2: Reports Issued...............................................................................	 67
	     Appendix 3: Savings and More Effective Use of Resources............................. 	 71
	                  Table 1: Questioned Costs...................................................................	 71
	                  Table 2: Funds to be Put to Better Use................................................ 	 72



BROADCASTING BOARD OF GOVERNORS
Letter to the Chairman of the Board

Executive Summary .....................................................................................................	 77
Inspections .................................................................................................................. 79
Information Technology ............................................................................................. 	 83
Investigations ............................................................................................................... 85
     Appendix 1: Investigative Activities ...................................................................	 87
     Appendix 2: Reports Issued ................................................................................	 89
     Appendix 3: Savings and More Effective Use of Resources ..............................	 91
	              Table 1: Questioned Costs ...................................................................	 91
	              Table 2: Funds to be Put to Better Use ................................................	 92

CONGRESSIONAL ACTIVITIES AND OUTREACH................................ 93

List of Abbreviations ....................................................................................................	 97
DEPARTMENT OF STATE
                                        EXECUTIVE SUMMARY




                The auditors, inspectors, investigators, and other professionals in the Office of In-
                spector General (OIG) promote effective management, accountability, and positive
                change in the Department of State (Department), the Broadcasting Board of Gover-
                nors (BBG), and the foreign affairs community.  They provide leadership to:

                •    promote integrity, efficiency, effectiveness, and economy;
                •    prevent and detect waste, fraud, abuse, and mismanagement;
                •    identify vulnerabilities and recommend constructive solutions;
                •    offer expert assistance to improve Department and BBG operations;
                •    communicate timely, useful information that facilitates decision-making and 	            	
                	     achieves measurable gains; and
                •    keep the Department, BBG, and the Congress fully and currently informed.
                	
                OIG’s accomplishments in audits, inspections, investigations, and other reviews
                during this period include the following:

                •    OIG Reviews Programs in Iraq.  OIG, along with the Department of Defense                                    	
                     Office of Inspector General, found the Iraqi Police Training Program to be
                	    a qualified success in addressing the need for a sizable Iraqi police force.  In 	   	
                     its review of the staffing process for Embassy Baghdad’s planned new com-
                     pound, inspectors found that the methods for determining the staffing level had 	    	
                     been effective, rigorous, and transparent.  In looking at security programs, inspec-
                	    tors concluded that current funding for protecting facilities and personnel in Iraq   	
                	    is inadequate in relation to the very high costs, that more positions are needed,
                     and that improvements are needed in informing mission employees of security
                     threats and incidents.  OIG’s inspection of the Bureau of International Narcotics
                     and Law Enforcement Affairs disclosed the Bureau’s solid record of achieve-
                     ments in Iraq, as well as Afghanistan, in the face of extraordinary challenges.

                •   OIG Examines Counterterrorism Efforts.  In OIG’s inspections of 19
                     missions abroad, inspectors included an emphasis on missions efforts against
                     terrorism.  OIG found that the U.S. mission to Pakistan provides critical support
                     to American counterterrorism efforts.  OIG auditors, in cooperation with the 	 	
                	    Offices of Inspectors General in five other agencies, conducted a review of the
                     export licensing process in the Bureau of Political-Military Affairs to evalu-
                     ate selected safeguards used to ensure that chemical and biological weapons are




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005          		            	
                   not transferred to terrorists or other entities of national concern.  OIG found that
                   the Bureau consistently executed its export licensing responsibilities in accordance
              	    with established policies and procedures and that its decisions were fully
                   documented.  Auditors also reviewed procedures for procurement, control,
                   and use of equipment provided to Kazakhstan, Kyrgyzstan, and Uzbekistan
                   and made several recommendations to improve tracking, marking, controlling, and
	                  transferring equipment.

             •     Auditors Find Unreported Property and Assets.  OIG auditors alerted the Depart-
                   ment to a potentially material understatement of extensive aircraft and spare parts
                   inventory under the aegis of the Bureau of International Narcotics and Law Enforce-
                   ment that apparently was not included in a previous financial statement.  The 	
                   Department has developed a plan to resolve the issue.  OIG continues to monitor the
                   situation and is prepared to assist the Department in providing adequate controls
                   over property and inventory.

             •     Investigations Get Results.  During the six months’ period of this report, the work
                   of OIG investigators recovered $2,177,575 and resulted in seven convictions as well
                   as three new felony indictments.  The investigators made 19 referrals for prosecution.  	
                   Personnel actions resulted in three suspensions, two reprimands or admonitions, and  	
                   three reimbursements.  

             •      OIG Tracks Implementation of the President’s Emergency Plan for AIDS Relief.
                   OIG auditors conducted a survey of the Office of the U.S. Global AIDS Coordinator
                   (S/GAC), which is responsible for all resources and activities related to the President’s
                   Emergency Plan for AIDS Relief (PEPFAR), to identify the FY 2004 funding for the
                   initiative, to ascertain how the funds were transferred to other agencies, and to deter-
                   mine auditing responsibilities.  OIG will use the results to plan future audits and to
                   inform other inspectors general of their auditing responsibilities.  Embassies in Africa
                   are expanding their participation in PEPFAR, and OIG explored the implications.  
                   OIG inspectors concluded that this program requires more operational resources in
                   Zambia and more direction and oversight of the global health agenda in Malawi.  In
                   Botswana, OIG found that the embassy in Gaborone needed to establish a full-time
                   coordinator for this program.

             •     Inspectors Focus on Public Diplomacy. OIG’s inspections of 19 missions included
                   an emphasis on public diplomacy.  Public diplomacy efforts in Singapore and Syria had
                   achieved notable successes.  Public diplomacy efforts in Pakistan, an overwhelmingly
                   Muslim nation, suffered from the lack of public access to embassy and consulate
                   compounds.  OIG also made recommendations to improve public diplomacy efforts
                   in Malaysia.




			
                           Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	       	
               •     Inspectors Cite Needed Improvement in Regional Information Management
                     Centers.  The Regional Information Management Centers (RIMC) in Pretoria
                     (South Africa), Bangkok (Thailand), Frankfurt (Germany), and Fort Lauderdale
                     are responsible for providing telegraphic, telephonic, e-mail, and onsite mainte-
                     nance support for information systems deployed at all posts in their assigned
                     regions.  Information technology inspectors reviewed RIMCs and found manage-
                     ment to be effective.  However, the centers lacked the standardization that could
                     improve efficiency and customer support, were deficient in the number of op-
                     erations officer positions, and needed to take steps to ensure long-term technical
                     workforce quality.

               •     Auditors Question $1.6 Million in Costs.  OIG auditors regularly examine ex-
                     ternal organizations receiving Department grants and contracts to ensure that
                     resources are accurately accounted for and that expenditures are made in accor-
                     dance with their intended purposes.   During this period, auditors reviewed grants 	
                     related to the Refugee Settlement and Placement Program and a public diplo-	
                     macy grantee.  As a result, the auditors made recommendations to improve the  	
                     management of the grants and questioned $1,636,178 in costs that were inad-	
                     equately documented.  

               •     Investigation Reveals Alleged Embezzlement of Government Funds. After an 	
                     investigation conducted jointly with the Office of Inspector General at the U.S.     	
                     Agency for International Development, a Mozambican national was arrested   	
                     and charged with embezzling more than $200,000 in government funds while 	
                     employed as a cashier for USAID and the Department at the American Embassy 	
                     in Maputo.

               •     Inspectors Examine Leadership and Executive Direction.  Every inspection
                     includes evaluations of the effectiveness of such senior executives as the Ambas-
                     sador, Assistant Secretary of State, and others in positions of leadership.  OIG
                     found particularly effective leadership at the U.S. missions in Israel.   The 	
                     Ambassador in Harare, OIG concluded, had been effective in triggering a senior-
                     level review of U.S. policy toward Zimbabwe.  OIG noted that the Ambassador 	
                     and Deputy Chief of Mission had made exemplary efforts to implement OIG    	
                     recommendations promptly in Singapore.  Shortcomings in leadership were found 	
                     at missions in Hong Kong and Taiwan.  Following a critical inspection of the
                     U.S. International Boundary and Water Commission, the Commissioner
                     resigned from his position.

               •     Inspectors Identify Needed Improvements in Information Security Programs.   
                     An evaluation of the Department’s Information Security Program found that,         	
               	     although the Department had taken several actions to improve the effectiveness
                     of its information security program and the program continues to evolve under




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005     		        	
              

               the leadership of the acting Chief Information Officer, several areas require senior
               management attention, including the lack of complete inventory of systems and
               the failure to implement fully the Department’s certification and accreditation pro-
               cess.  OIG’s report led to increased coordination between the Bureaus of Diplo-
               matic Security and Information Resource Management.  

         •     Inspectors Assess Rightsizing.  OIG inspectors focused on rightsizing — ensuring
               that missions are staffed at the proper level -- in all their reviews.  Consulate       	 	
         	     General Hong Kong was found to be successful in reducing its size to reflect its
               changed mission goals.  OIG concluded that staffing was too generous at the
               American Embassy in Harare (Zimbabwe) and recommended a rightsizing review.  
               Rightsizing meant a need for increased staffing in Santo Domingo (Dominican
               Republic) and filling existing embassy positions in Dili (East Timor).  The Bureau
               of International Narcotics and Law Enforcement Affairs needed to correct 	                	
         	     deficiencies created by long-term inadequate staffing.

         •     Inspectors Review Financial Management.  A comprehensive review of the U.S.
               India Fund and Interim Fund identified nearly $15 million in additional resources
               (whose original source was nonconvertible Indian rupees) that would be a
               valuable resource for furthering U.S.-India relations.  Inadequacies in operating   
               budgets threatened to force Embassy Lusaka (Zambia) to reject additional pro-
               gramming to implement the President’s Emergency Plan for AIDS Relief.  The
               Bureau of International Narcotics and Law Enforcement Affairs needed to
               strengthen its mechanisms for oversight of procurement, contract compliance, and
               property management.

         • Auditors Identify Improvements Needed in Financial Management. OIG audi-
               tors oversee the Department’s financial statement audits.  In addition, the auditors    	
         	     conduct audits of the Departments management of more than $7.5 billion in 	          	
               annual appropriations and more than $23 billion in assets.  An audit of the Inter-
               national Cooperative Administrative Support Services financial statements resulted     	
               in an unqualified opinion, but brought to management’s attention concerns about
               information security and inadequacies in the Department’s financial and 	            	
         	     accounting system.  A separate management letter identified other internal
               control weaknesses.  An audit of the U.S. International Boundary and Water 	               
               Commission financial statements resulted in an unqualified opinion.  A separate
               management letter identified numerous internal control weaknesses.  The auditors
               conducted a survey of the Department’s guidance to track and manage value-
               added taxes applicable in many foreign jurisdictions.  The auditors found that the
               Department did not have adequate oversight of Value-Added Tax reimbursements     	
         	     and made recommendations to improve the process.

         •     Impersonation of an Ambassador Results in Arrest.  Following an OIG investiga-
               tion, OIG agents and agents from the Bureau of Diplomatic Security and the De-	 	
               partment of Homeland Security, arrested a resident of the U.S. Virgin Islands for 	             	
         	     impersonating a U.S. ambassador and using fraudulent Department credentials.  	 	
         	     Prosecution is pending.

			
                        Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   	
               •     Inspectors Assess Progress in Regionalization.  OIG evaluated opportunities to cut
                     costs by consolidating some embassy functions into regional centers in keeping
                     with the Department’s initiatives in regionalization.  Positive results from region-
                     alization were demonstrated in the inspections of the mission in the Dominican
                     Republic, and OIG recommended regionalization of functions to support the mis-
                     sion in Brunei.

               •     Information Technology Inspectors Recommend Improvements at Embassies.  
                     Information Technology inspectors conducted inspections at 19 missions over the
                     six-month period.  There were numerous positive findings, but they also found a
                     wide variety of problems and made recommendations regarding inadequate train-
                     ing, incomplete systems documentation, inaccurate patch management reports,
                     inadequate information security, unsystematic procedures, and inadequate IT
                     contingency planning.

               •     Inspectors Recommend Improvements in Consular Management.  OIG made
                     recommendations to realign staffing, require training, and improve supervision in
                     the Office of Children’s Issues of the Bureau of Consular Affairs.   In the Bureau’s
                     Office of Policy Review and Interagency Liaison, OIG identified needed program
                     improvements and found that Bureau management needed to better define proce-
                     dures for the new employees who worked on The Hague Adoption Convention.  
                     OIG also developed recommendations for improvements needed in Consular
                     Affairs’ Office of the Executive Director, including necessary staff increases,
                     improved oversight of contracts, better controls over U.S. passports and visa foils,
                     and designation of a Chief Information Officer for the Bureau.  Consular Affairs
                     acted promptly to implement OIG recommendations to strengthen the Nonimmi-
                     grant Visa Process.

               •     OIG Seeks Improvements in Organizational Structures. OIG found competi-
                     tion and confusion, and even potential duplication of effort, resulting from a failure
                     to define roles in the Office of the Science and Technology Adviser and the Bureau
                     of Oceans and International Environmental Scientific Affairs.  The Bureau of
                     International Narcotics and Law Enforcement Affairs, OIG concluded, was
                     plagued by strains resulting from poor organization and overtaxed resources; OIG
                     made recommendations to correct these shortcomings.

               •     Investigators Uncover Contracting Irregularities. OIG investigators found that a
                     company under contract to the Bureau of Overseas Buildings Operations had
                     double-billed the Department for equipment costs on approximately 96 task orders.
                     OIG’s work resulted in the company’s refunding $44,000 and reducing its equip-
                     ment prices by $1.3 million.  The Bureau also took steps to ensure that internal
                     management procedures prevented similar problems in the future.  Another investi-
                     gation resulted in a contractor’s crediting an embassy with $137,564 for over-	
                     charges.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005     		        	
      •     Investigation Leads to Guilty Pleas in Labor Visa Fraud.  As a result of an OIG
            investigation, seven individuals have pleaded guilty to charges of conspiracy to
            commit immigration fraud and related offenses in a scheme involving at least 1,400
            fraudulent applications.  Two of the defendants have been sentenced, and three
            other defendants were required to pay monetary judgments amounting to 585,000.

      •     OIG Reviews Mission Safety and Building Security.  OIG identified important
            issues related to mission safety in Lebanon.  An OIG investigation revealed that
            the web site of an approved vendor disclosed Department certification standards
            for forced-entry, ballistic-resistant structural systems, critical data that would be use-
            ful to a terrorist or other person planning an attack.  The Department, at OIG’s
            insistence, asked the company to remove this information from its web site.

      •     Inspectors Assess Information Technology Management Fragmentation in the
            Bureau of International Narcotics and Law Enforcement Affairs.  Information
      	     Technology inspectors concluded that fragmentation of IT management in the
            Bureau of International Narcotics and Law Enforcement Affairs and the lack of
            central IT leadership and oversight reduced the effectiveness of IT facilities and use
            in the bureau.

      •     Inspectors Assess Personnel Management.  OIG found that one-year Foreign
            Service assignments in Lebanon and Pakistan have resulted in lack of planning and
            problems in continuity of leadership, program management, and maintaining con-
            tacts.  Inspectors made recommendations on tour-of-duty policies for the embassy  
            in Lebanon.

      •     Inspectors Find Inadequacies in the Integration of the Department’s Networks.  
            Information technology inspectors determined that the integration of the Public
            Diplomacy global network (PDNet) into the OpenNet Plus (ONP) network,
            although generally successful, had failed to identify alternate mechanisms for
            PDNet services that were no longer provided and that the Department had failed
            to address remaining issues from the integration.

      •	 Investigators Confront Identity Theft.  OIG initiated a program to determine
      		 whether individuals have fraudulently obtained U.S. passports using false
             identitites.  To ensure a comprehensive law enforcement approach, OIG works in    
             cooperation with the Bureaus of Consular Affairs and Diplomatic Security, the    
            Department of Homeland Security, and other law enforcement agencies.  
            The “Passport Sentinel” initiative addresses key aspects of the 2004 Intelligence
            Reform bill dealing with passport security.  During the reporting period,
            investigators made three 	arrests and referred other cases for possible investigation
            or  prosecution.




			
 10                  Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   10	
                                                      SECURITY



      During this period, OIG conducted 19 security management inspections and reviews, one security
      compliance follow-up review, two special reviews, and one security audit.  With the exception of the
      Creekbed Renovation Report, these reports are summarized in a separate, classified annex to this report.  
      (See Appendix 2 of this report for a complete list of the reports issued during this semiannual period.)




      Review of the Creekbed Renovation Project (SIO-A-05-02)

      OIG reviewed the Department’s project to renovate the facilities at the Creekbed site in Frankfurt,
      Germany, where the consulate general and regional support center will be located. The Department has
      taken important steps to address current and future Creekbed project requirements since the facilities
      were acquired in 2002. A particularly notable initiative is the establishment of a working group that is
      providing an ongoing review of the project’s plan and addressing funding issues that arise. The working
      group operates under the leadership of the Under Secretary for Management and its membership includes
      the Bureaus of Administration, Diplomatic Security, European and Eurasian Affairs, Overseas Buildings
      Operations, and Resource Management and other organizations representing tenants in the renovated
      facilities.   

      The Creekbed facility was designed and constructed to 1937 standards, with the exception of Wing
      N, which was built in the 1970s to current standards at that time, to function as a German air force
      hospital. Planning and construction of U.S. diplomatic facilities overseas is subject to requirements of the
      Foreign Relations Authorization Act for Fiscal Year 1988 and 1989. That Act requires the Department,
      in consultation with the Director of Central Intelligence Agency, to certify that appropriate and adequate
      steps have been taken to ensure the security of the construction projects. By policy, the Department
      applies Overseas Security Policy Board (OSPB) security standards to renovations of newly acquired
      buildings, to ensure the resulting facilities provide protection for classified information, personnel, and
      national security–related activities.

      OIG recommended that the Department identify all OSPB security standards deficiencies pertaining to
      the Creekbed project and either incorporate corrections into project renovation plans or seek approval for
      exceptions to the security standards for these deficiencies. OIG also recommended that the Department
      seek the funding needed to ensure the floor-loading requirements of Creekbed’s post communication
      center are addressed before the facilities are occupied.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		            11 11	
			
 12       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   12	
                                                         AUDITS




     CONTRACTS AND GRANTS DIVISION


     Quality Control Review of Grant Thornton LLP 	 			
     (AUD/CG-05-41)			

     As the cognizant federal funding agency for Meridian International Center, OIG performed a
     quality control review of the Office of Management and Budget (OMB) Circular A-133, Audits of
     States, Local Governments, and Non-Profit Organizations.  Grant Thornton, LLP performed the
     audit for the fiscal years ended September 30, 2003, and September 30, 2004. The objectives of the
     review were to: (1) ensure that the Meridian FY 2003 and FY 2004 A-133 audits were conducted
     in accordance with applicable standards and met the single audit requirements; (2) identify any
     follow-up audit work needed; and (3) identify issues that may require management attention. OIG
     determined that Meridian’s A-133 audit reports and associated Grant Thornton LLP working pa-
     pers met the applicable auditing guidance and regulatory requirements specified in OMB Circular
     A-133, its related compliance supplement, government auditing standards, and generally accepted
     auditing standards. Therefore, no follow-up action is required.




     Agreed-Upon Procedures Applied to the Claim Submitted by
     Kullman Industries, Inc. Under Contract No. SELMEC-02-C-0025
     (AUD/CG-05-35)

    At the request of the Bureau of Administration, Office of
    Logistics Management, Office of Acquisitions Manage-
    ment (A/LM/AQM), OIG performed agreed-upon proce-
    dures to a claim totaling $3,728,359 submitted by Kullman.
    The primary purpose of OIG’s procedures was to determine
    whether amounts claimed: (1) were substantiated as having been
    incurred; and (2) were reasonable, allocable, and otherwise allow-
    able in accordance with the terms and conditions of the contract
    and with the cost principles set forth in Part 31 of the Federal
    Acquisition Regulation. 	 	
                                                                                          Model of new embassy compound, Dushanbe		
                                                                                          		 (Source: Kullman Industries, Inc.)	




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005        		         13 13	
     OIG found adequate support for costs tested and noted no exceptions. However, OIG
     did not determine whether Kullman was entitled to the amount claimed because this
     has not been resolved and is within the purview of the General Services Administration
     Board of Contract Appeals.


     Agreed-Upon Procedures Applied to the American 		
     Institute in Taiwan Procurement Practices and FY 2003 		
     Indirect Cost Rate (AUD/CG-05-34)

     At the request of the Bureau of East Asian and Pacific Affairs, OIG applied agreed-upon
     procedures to the indirect costs reported by the American Institute in Taiwan (AIT) for
     the fiscal year ended September 30, 2003.  OIG’s primary purpose was to determine
     whether the indirect cost rate structure complied with applicable regulations and to
     recommend a final rate for the stated period.  OIG found that the indirect cost rate
     reported by AIT for FY 2003 was mathematically correct, and the methodology and rate
     structure were logical and acceptable.  However, AIT did not always comply with ap-
     plicable regulations regarding preparing and submitting indirect cost rate proposals and
     rate presentation categories.  OIG recommended that the A/LM/AQM finalize AIT’s
     indirect cost rate for the stated period using the recommended rate and require AIT to
     comply with applicable regulations or, if AIT is unable to comply, seek a waiver from
     OMB on AIT’s behalf.  


     Agreed-Upon Procedures Review of Indirect Rates 		
     Proposed by Mainstreet Technologies, Inc. 		
     (AUD/CG-05-31)

     At the request of the Bureau of Public Affairs, OIG conducted agreed-upon procedures
     to review the proposed indirect rates for compliance with cost principles set forth in
     the Federal Acquisition Regulation Part 31. OIG recommended that the Department
     use the recommended rates set forth in its audit report for purposes of pricing delivery
     orders to be performed in 2005 or shortly thereafter.



     Agreed-Upon Procedures Review of Indirect Rates 	
     Proposed by National Strategy Information Center, Inc.
     (AUD/CG-05-30)

     At the request of INL, OIG conducted agreed-upon procedures to review the proposed
     indirect rates for the final settlement of costs incurred in fiscal year ended October 31,
     2003, and provisionally for fiscal year ended October 31, 2004. OIG recommended that
     the Department use the proposed rates for the final settlement of costs incurred in fiscal
     year ended October 31, 2003, and provisionally for fiscal year ended October 31, 2004,
     until amended, as appropriate.


			
 14                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   14	
              Review of Lutheran Immigration and Refugee Service’s 	
              Reception and Placement Program (AUD/CG-05-28)

              At the request of the Bureau of Population, Refugees, and Migration (PRM), OIG con-
              ducted a review of the Lutheran Immigration and Refugee Service’s (LIRS) Reception and
              Placement Program for FYs 2000, 2001, and 2002. The objectives of OIG’s review were
              to determine whether LIRS adequately accounted for federal funds and specifically to
              ascertain whether spending increased in the fourth quarter of FY 2002. In addition, OIG
              reviewed LIRS’s compliance with applicable federal laws and regulations related to the
              terms and conditions of the agreements.

              OIG found that, generally, LIRS adequately accounted for federal funds; however, it needs
              to increase monitoring of its subrecipients to ensure that they are properly accounting for
              federal funds and using them for their intended purpose. As a result of the deficiencies
              noted, OIG questioned costs totaling about $655,000. Of that amount, $49,000 was un-
              authorized or unallowable under terms and conditions of the agreements, and $606,000
              was classified as unsupported because of either inadequate or a lack of documentation.
              OIG recommended that PRM require LIRS and its subrecipients to reimburse the 	
              Department for unallowable costs and provide additional documentation for the unsup-
              ported costs.




              Review of Selected Grants Awarded to Institute for the
              Study and Development of Legal Systems (AUD/CG-05-26)

              At the request of the Bureau of Educational and Cultural Affairs (ECA), OIG assessed the
              grantee’s operations and financial capacity as a “going concern” and reviewed costs claimed
              under selected grants.  OIG questioned costs totaling $981,178 claimed by the grantee as
              (1) unexpended grant funds not returned to the Department ($83,460), (2) charges made
              to expired grants ($8,260), and (3) unsupportable grant expenditures ($889,458).  OIG
              also noted that the grantee relied heavily on grants from the Department and that without
              these funds, it may cease to exist as a “going concern.”

              OIG recommended that ECA require the grantee to reimburse the Department for un-
              spent funds and unsupported and unallowable costs.  Also, the grantee should be required
              to maintain general ledger classifications that are consistent with grant budgets; maintain
              adequate support for loans payable, payroll, payroll tax payable, and accounts payable;
              and develop and apply indirect cost rates consistently.  Because of the pervasiveness of the
              identified deficiencies, OIG recommended that ECA withhold or restrict future funding
              until the grantee has corrected these deficiencies.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      15 15	
      Application of Agreed-Upon Procedures for Export 		
      Control and Related Border Security Assistance 		
      Program Kazakhstan, Kyrgyzstan, and Uzbekistan 		
      (AUD/CG-05-25)

      At the request of the Bureau of Nonproliferation, Office of Export Control Coopera-
      tion, OIG conducted agreed-upon procedures of the procurement, control, and use
      of equipment provided to the countries of Kazakhstan, Kyrgyzstan, and 	       	
      Uzbekistan under the Export Control and Related Border Security Assistance 	 	
      Program. OIG determined that equipment was procured in accordance with the
      Federal Acquisition Regulation and with Department procurement policies and pro-
      cedures. However, several nonprocurement issues presented opportunities for improve-
      ment, and OIG made recommendations to improve tracking, marking, controlling,
      and transferring equipment.




      FINANCIAL MANAGEMENT DIVISION

      Application of Agreed-Upon Procedures for Retirement,
      Health Benefits, and Life Insurance (AUD/FM-05-44)

      Under OIG’s direction, an independent external auditor performed the procedures
      enumerated in OMB Bulletin No. 01-02, Audit Requirements for Federal Financial
      Statements. These procedures were performed solely to assist the Office of Person-
      nel Management (OPM) in assessing the reasonableness of the Retirement, Health
      Benefits, and Life Insurance withholdings and contributions as well as semiannual
      headcount information submitted by the Department. The contractor did not identify
      any differences in the amount for withholdings and contributions in the Department’s
      payroll file and the amount submitted to OPM. However, the contractor found that
      some employees’ official personnel files did not contain the required forms, and there
      were reportable differences between the amounts the contractor calculated for retire-
      ment and life insurance withholdings and the amounts submitted.




      Department’s Oversight of the Foreign Affairs 			
      Recreation Association (AUD/FM-05-43)

      The Foreign Affairs Recreation Association, Inc. (FARA) is a private, nonprofit organi-
      zation that provides recreational and other activities for the welfare and convenience of
      its members, the majority of whom are Department employees. FARA manages


 16
			                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   16	
               the Department’s parking facilities at some Department locations and operates a fit-
               ness facility, shops, and other services in space that the Department provides to FARA
               at no charge. A memorandum of agreement (MOA) between FARA and the Depart-
               ment governs the Department’s relationship with FARA.  

               In response to questions raised by Department employees, OIG audited aspects of the
               Department’s oversight of FARA’s operations. The specific objectives of the audit were
               to determine whether:

               ·•  the Department had an effective process to monitor compliance with the MOA;     	
               	   and
               ·•  the Department and FARA had effective processes to ensure that FARA’s services 	
               	   met member needs and expectations.

               OIG found that the Department did not have an effective process to monitor FARA’s
               compliance with the MOA. Noncompliance had occurred and been allowed to con-
               tinue. In addition, OIG questioned whether the requirements in the MOA were
               adequate to protect the Department from risks related to FARA’s activities. OIG also
               found that neither the Department nor FARA had effective processes to ensure that
               FARA’s services were beneficial for Department employees and, therefore, the best
               use of Department resources. OIG recommended that the Department develop and
               implement written policies and procedures to monitor FARA’s compliance and deter-
               mine whether the existing MOA requirements were sufficient.




               Concerns About Changes in Cyber Security Roles and
               Responsibilities (AUD/FM-05-40)

               During the audit of the Department’s FY 2004 financial statements, an external con-
               tractor, working at OIG’s direction, identified concerns related to the Department’s
               plans to restructure cyber security roles and responsibilities. The contractor indicated
               that the restructuring could cause the Department to lose the momentum it generated
               during its initial certification and accreditation effort. OIG plans to monitor the De-
               partment’s reorganization of cyber security responsibilities during the FY 2005 Finan-
               cial Information Security Management Act review and the audit of the Department’s
               FY 2005 financial statements.  Considering the potential risk to the Department’s
               financial management systems, the Department needs to continue making progress in
               information technology security.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   17 17	
      Management Letter Related to the Audit of the 		
      International Cooperative Administrative Support 		
      Services’ FY 2003 and FY 2002 Financial Statements
      (AUD/FM-05-39)

      During an audit of the International Cooperative Administrative Support Services’
      (ICASS) 2003 and 2002 financial statements, an independent external auditor identi-
      fied internal control weaknesses relating to ICASS’ timeliness of financial reporting,
      computer security, accounts receivable, personal property, and accounts payable. The
      auditor recommended that ICASS take appropriate action to address these weaknesses.  
      The auditor provided a management letter for this internal control weakness in 	
      accordance with generally accepted auditing standards.  


      Audit of the International Cooperative Administrative
      Support Services’ FY 2003 and FY 2002 Financial 	
      Statements (AUD/FM-05-38)

          Under OIG’s direction, an independent external auditor audited the ICASS financial
          statements as of September 30, 2003 and September 30, 2002, in order to report on
          whether the financial statements fairly presented ICASS’ financial position and results
          of financial operations in accordance with generally accepted accounting principles; to
          determine whether ICASS had an internal control structure that provided reasonable
          assurance of achieving internal control objectives; and to determine whether ICASS
          complied with applicable laws and regulations.

          The independent external auditor issued an unqualified opinion on ICASS’ financial
          statements as of September 30, 2003. However the report brought to management’s at-
          tention concerns about information system security and the inadequacy of the Depart-
          ment’s financial and accounting system, which is both an internal control weakness and
          an issue of noncompliance with several laws and regulations.


          Management Letter Related to the Audit of the Interna-
          tional Boundary and Water Commission’s 2004 and 2003
          Financial Statements (AUD/FM-05-37)

          During an audit of the International Boundary and Water Commission, United States
          and Mexico, U.S. Section’s (USIBWC) 2004 and 2003 financial statements, an inde-
          pendent external auditor identified internal control weaknesses relating to USIBWC’s 	
          internal audit function, property and equipment, use of credit cards, information 	



			
 18                     Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   18	
               security, suspense accounts, deferred maintenance, accounts receivable, contract	
               accruals, and financial reporting. The auditor recommended that USIBWC take 	
               appropriate action to address these weaknesses.  The auditor provided a separate man-
               agement letter for this internal control weakness in accordance with generally accepted
               auditing standards.



               Audit of the International Boundary and Water 			
               Commission’s 2004 and 2003 Financial Statements 	
               (AUD/FM-05-36)

               Under OIG’s direction, an independent external auditor audited the USIBWC finan-
               cial statements as of September 30, 2004 and September 30, 2003, in order to report
               on whether the financial statements fairly presented USIBWC’s financial position and
               results of financial operations in accordance with generally accepted accounting prin-
               ciples; to determine whether USIBWC had an internal control structure that provided
               reasonable assurance of achieving internal control objectives; and to determine whether
               USIBWC complied with applicable laws and regulations. USIBWC is charged by a
               series of treaties between the governments of the United States and Mexico with the ap-
               plication, regulation, and exercise of the provisions of such agreements for the solution
               of water and boundary problems along the U.S. and Mexico boundary. The indepen-
               dent external auditor issued an unqualified opinion on USIBWC financial statements
               as of September 30, 2004, and did not identify any material weaknesses or material
               instances of noncompliance.


               Assessment of Value-Added Tax Exemption and 		
               Reimbursement Efforts (AUD/FM-05-33)

               The OIG conducted a survey to determine the extent to which the Department had
               established guidance and mechanisms to track and manage value-added tax (VAT) ex-
               emptions, expenditures, and reimbursements. OIG found that the Department did not
               have adequate oversight of the VAT process; its financial management systems were not
               flexible enough to identify and track VAT reimbursements; and it had not developed
               the necessary policies, procedures, and controls related to VAT.

                   •     The Bureau of Diplomatic Security, Office of Foreign Missions
                         (DS/OFM), had not created guidance on how posts should handle
                         reciprocity issues and was not always involved in reciprocity nego-
                         tiations at post. In addition, the bureau had not developed and
                         disseminated formal policies and procedures on how bureaus
                         and posts should manage negotiating and processing VAT reim-
                         bursements.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		    19 19	
     •      The Bureau of Resource Management (RM) had not established a	
             financial system for easily accounting for VAT payments and
             reimbursements in accordance with the Department’s Foreign Affairs   
             Manual and had not provided policies, procedures, and training
             needed for effective and efficient administrative control of VAT  
             reimbursements. Posts had to develop and implement their own
             manual and automated “cuff ” records.

    OIG recommended that DS/OFM provide guidance and training to bureaus and posts
    on managing reciprocity issues and seeking VAT exemptions and reimbursements. In
    addition, RM should expand the financial management systems, policies and proce-
    dures, and training for accounting for and reporting VAT payments and reimburse-
    ments at each post as required by policy and law.




    INTERNATIONAL PROGRAMS DIVISION

    Survey of the Office of the U.S. Global AIDS Coordinator 		
    (AUD/IP-05-32)

    In May 2003, legislation established the Office of the U.S. Global AIDS Coordinator
    (S/GAC) within the Department. S/GAC is responsible for all resources and interna-
    tional activities of the U.S. government to combat the worldwide HIV/AIDS pandem-
    ic, including U.S. contributions to the Global Fund to Fight AIDS, Tuberculosis, and
    Malaria, and to advance the HIV/AIDS prevention, care, and treatment goals under
    the President’s Emergency Plan for AIDS Relief (PEPFAR). The primary objectives
    of this survey were to (1) identify and quantify FY 2004 funding under the PEPFAR
    initiative; (2) ascertain the funding allocation mechanisms used to convey such funds to
    other federal agencies and organizations; and (3) determine the audit responsibility of
    the Inspectors General of agencies receiving funding under PEPFAR. OIG found that
    S/GAC transferred or allocated about 98 percent of the $488 million received in FY
    2004 to other federal agencies through interagency arrangements authorized by Section
    632(a) of the Foreign Assistance Act.

    During OIG’s survey, S/GAC was establishing policies and procedures and hiring staff.
    OIG will use the results of this survey as well as the responses to the questionnaire
    provided by the U.S. Agency for International Development OIG in August 2005 to
    select activities for future audits. In addition, OIG will advise the Inspectors General of
    agencies receiving FY 2004 PEPFAR funding under Section 632(a) authority of their
    respective audit responsibilities. FY 2004 was the first year of operation for 	S/GAC;	
    therefore, OIG did not make recommendations at this time.




 20
			                  Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   20	
              Export Licensing of Chemical and Biological Commodities
              (AUD/PR-05-29)

                                                                       This revew evaluated selected
                 This report is part of a cooperative effort           safeguards used by the Depart-
                  by the following OIGs:                               ment’s Bureau of Political-Military
                                                                       Affairs, Directorate of Defense
                                                                       Trade Controls (PM/DDTC) to
                      Central Intelligence Agency                      ensure that chemical and biologi-
                      Department of Commerce                           cal weapons are not transferred to
                      Department of Defense                            entities of national concern. The
                      Department of Energy                             National Defense Authorization
                      Department of Homeland Security                  Act for 2000 (Pub. L. No. 106-
                                                                       65) requires Offices of Inspectors
                      Department of State
                                                                       General to submit annual reports
                                                                       to Congress on the transfer of
            militarily sensitive technology and entities of national concern. The Department registers
            and licenses companies and universities to participate in the export of defense articles and
            services on the U.S. Munitions List. In addition, the United States has renewed its atten-
            tion on the importance of U.S. export controls to further nonproliferation of weapons after
            terrorist attacks on September 11, 2001.

             OIG found that PM/DDTC consistently executed its export licensing responsibilities in
             regard to chemical and biological commodities in accordance with established policies and
             procedures. OIG also found that the conclusions reached by PM/DDTC personnel were
             fully supported by file documentation. OIG did not make any recommendations as the
             process was working effectively.




            PROPERTY, PROCUREMENT AND ADMINISTRATION 	
            SUPPORT DIVISION

            Review of Department’s Compliance With State First Policy
            for Acquisitions (AUD/PP-05-42)

            OIG conducted a review of Department interagency agreements (IAA) to determine: (1)
            whether domestic bureaus and offices complied with the May 2002 State First Policy for
            Acquisitions, which requires bureaus to determine the most cost-effective means of procur-
            ing the goods and services, and (2) whether internal controls for monitoring IAAs were ad-
            equate. Since May 2002, 84.2 percent of domestic bureaus and offices have not complied
            with the State First policy, and many entered into IAAs without first obtaining a Depart-
            ment	waiver.	During	FYs	2003-04,	domestic	bureaus	and	offices	entered	into	381


Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      21 21	
     	IAAs,	yet	they	could	only	identify	surcharges	for	101	of	them	(2.	percent),	with	a	
      value of about $434 million and about $7.7 million additional service fees and charges.
      The remaining 280 IAAs (73.5 percent), with contract values of about $209.4 million,
      had servicing costs that the Department pays to other agencies but could not identify.

     OIG found limited but significant examples of cost-savings achieved by shifting the
     procurement of goods and services from IAAs to open market competition administered
     by the Department. However, the Department’s internal controls need strengthening to
     justify the use of IAAs and to monitor and evaluate contactor performance. OIG’s review
     of an IAA in the Bureau of Information Resource Management (IRM), with a contract
     value of $126 million, identified unallowable costs of $350,000 for passthrough fees paid
     to the prime contractor; a substantial increase in award fees from $2.4 million to $9 mil-
     lion within the same contract dollar level; and significant labor rate changes, increasing
     by over 40 percent.

     OIG recommended that the Bureau of Administration’s Office of the Procurement Ex-
     ecutive (A/OPE) and A/LM/AQM ensure greater compliance with the State First policy
     by refining guidance and providing standardized procedures and forms for processing
     IAAs. A/OPE agreed with the recommendation and proposed to dedicate a page on its
     website to the State First Policy and provide additional guidance, including how to pre-
     pare IAAs. In addition, IRM concurred with OIG’s recommendation to audit the $126 
     million IAA, including recovery of $350,000 in passthrough charges OIG questions as
     not eligible under the contract.

                                IRM Actions To Monitor and Justify
                                  Interagency Agreements (IAAs)

          OIG’s report found that IRM aggressively complied with the Department’s
          State First Policy for Acquisitions, whose primary purpose is to require
          bureaus to determine the most cost-effective means of procuring the goods
          and services, either in-house or through another agency. During 2003, IRM
          established a Procurement Support Division with oversight responsibility for
          acquisition. The division’s functions are to:

          	   •		maintain a log of all IAAs;·			
          	   •	 establish, develop, and manage all procurement activities;
          	    	•   plan and develop strategies and standards for program offices to 	
          		 comply with State First policy and evaluate individual transac-			
          				tions;		
          		• coordinate development of the bureau acquisition plan;
          	   •		coordinate management and feasibility studies, plan and develop 	
          				requests for proposals to meet requirements, and develop
                   standard operating procedures to ensure conformance with
          	        regulat	ory requirements government-wide;
            	 •		manage and coordinate the bureau’s Two-Year Advanced
                   Acqui	sition Plan; and
            	 •		administer the bureau’s participation in the Department’s Smart			
            				Pay purchase card program.

			
 22                  Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   22	
                As a result, IRM has shifted a significant number of requirements from
                IAAs to an open market competition.  Bureau officials cited lower contract
                costs as the predominant reason for rescinding IAAs, with the added ben-
                efit of saving IAA fees and surcharges.  An IRM official believes that lower
                contract costs for multiyear procurements were the result of these chang-
                es, including multiple IAA actions where about $1.2 million was saved in
                avoidance of fees.




                                                Unreported Property and Inventory
                                                                    In August 2005, during a survey
                                                                    of the Bureau of Narcotics and
                                                                    Law Enforcement Affairs Air
                                                                    Wing, OIG found unreported
                                                                    aircraft and spare parts inven-
                                                                    tory. OIG auditors immediately
                                                                    alerted the Department to the
                                                                    potentially material understate-
                                                                    ment of property and inven-
                                                                    tory that apprarently was not
                                                                    included in a previous finan-
                                                                    cial statement. OIG met with
                                                                    Department officials and the
                                                                    independent auditors to discuss
                                                                    the impact upon its financial
                           statements. On August 29, 2005, the Department notified users of
                           a potential material understatement of assets affecting its FY 2004
                           comparative financial statements, which were issued on November 15,
                           2004. The Department has developed a plan to resolve this issue expe-
                           ditiously, in consultation with OIG. Further, OIG and the independent
                           auditors are performing additional steps related to property in the audit
                           of the 2005 principal financial statements. OIG will continue to moni-
                           tor this matter and stands ready to assist the Department to ensure that
                           it has adequate controls over property and inventory.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   23 23	
                                 BETTER USE OF FUNDS


    Review of Security 	
    Upgrade Construction
    Project in 	
    Havana, Cuba
    (AUD/PPA-05-15)

    OIG recommended that, af-
    ter settlement of the Havana
    security construction upgrade
    project contract termination
    claim, the Department use the
    remaining funds for other secu-       Cubans protesting U.S. Presence in Havana Interests Section
    rity upgrade projects. On August 5, 2005, OBO provided OIG a copy of a contract
    modification, dated April 29, 2005, deobligating $3,526,067.23 from the contract.  Ad-
    ditional funds may be put to better use upon project completion and the final settle-
    ment under the contract.




			
 24                     Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	      24	
                                      BEST PRACTICES
              Strengthening Internal Controls Over Personal Property at Overseas
                                            Posts

              During the Review of Procurement and Property Operations at Embassy
              Bamako (AUD/PPA-05 -03), OIG evaluated actions the post took to remedy
              internal control weaknesses over personal property, including shortages
              caused by employee theft. The post said it had taken corrective actions,
              including “renewed emphasis on frequent spot checks.” However, OIG’s ex-
              amination of property records indicated that the accountable property officer
              (APO) had delegated the duty of periodically spot-checking expendable and
              nonexpendable property to the supply supervisor, a Foreign Service National
              employee who had daily oversight of the post’s property operations. Although
              Department regulations permitted delegation of this required task, OIG’s
              findings on property management weaknesses warranted more direct APO
              involvement and a complete accounting for all expendable and nonexpend-
              able property.

              OIG expressed its concern that under current policy, an APO may delegate
              the duty of periodically spot-checking personal property. In OIG’s opinion,
              requiring APOs to conduct spot checks would reduce the risk of property
              mismanagement and help strengthen management controls Department-
              wide.  Property Management Branch officials agreed and on August 1, 2005,
              notified OIG that both the Asset Management Regulation and accompanying
              Foreign Affairs Handbook were revised to require all overseas APOs to per-
              sonally conduct periodic property spot checks. OIG commends the action
              taken to strengthen internal controls over personal property at overseas posts
              as a best practice.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   25 25	
                                                       DCAA Audits

As requested by OIG, the Defense Contract Audit Agency conducted the following audits.



Report Title	                                   Contractor	          Report Number	              Date           Questioned
			                                                                                            	Issued          Costs

Review of Allowances for Hazard            DynCorp   	         03311-2005D17900   April 11, 2005	       N/A
Pay and Post Differential for      	       International		
Contract Number S-OPRQ-96-C-0547

Report on Audit of Travel Cost in          DynCorp 	           03311-		                       May 11, 2005	        N/A		
Cost-Plus Contract for Police Training     International	      2005D17900022

Report of Audit of Cost-Plus Contract                  DynCorp              03311-	          May 11, 2005	         N/A			
for Police Training                                    International	       2005D17900009

Review of Allowances for Hazard Pay DynCorp 	                     03311-	                    May 18, 2005	         N/A			
and Post Differential for Cost-Plus-          International	      2005D1790016	   
Fixed-Fee
Contract Number S-LMAQM-03-C-0028

Report on Application of Agreed-Upon Kellogg Brown 	 03311-	                             July 22, 2005	 	 N/A			
Procedures to Calculate Daily Life           & Root	              02005K17900015	                 	
Support Rates under LOGCAP
Task Order 0100
	
Report on Audit of Billed Costs on 									
Task Order Nos. 03-131, 03-140 	             RONCO            04141-	                   
                                                                              	         August 9, 2005		   $377,976	 		
and 04-153 Under Integrated Mine 	         Consulting        2005B17900005
Action Services (IMAS)	                      Corp.		
Contract No. S-LMAQM-99-D-0144




			
 26                             Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	           26	
                                                  INSPECTIONS




           IRAQ INSPECTIONS

           Interagency Assessment of Iraq Police Training
           (ISP-IQO-05-72)

           The Inspectors General of the Departments of Defense and State established an
           interagency team to assess the Iraqi police training program (IPS).  The review
           focused on evaluating U.S. government-funded programs that train and equip the
           Iraqi police service and assessing the effectiveness of the coordination and coopera-
           tion between the Department of State and the Department of Defense activities for
           developing, implementing, and conducting training for the IPS.


           The review found that, although the IPS is not yet capable of independently meeting
           the security challenges, relevant Coalition training efforts have resulted in a qualified
           success.  However, the review noted several concerns with the program, including the
           design and execution of training programs.  The OIGs also found that the empha-
           sis on creating a sizeable police force has overshadowed the need for attention to the
           qualitative performance of those trained.


           Review of the Staffing Process for Embassy Baghdad’s
           New Embassy Compound (ISP-IQO-05-61)

           Responding to congressional interest, the OIG reviewed the process for requesting,
           reviewing, and approving the staffing level of the new embassy compound of Embassy
           Baghdad in 2010.  In general, OIG found that the Department’s process had been
           rigorous, transparent, and effective.    

           OIG reviewed whether the process used to project Embassy Baghdad staffing was a
           suitable model for rightsizing efforts elsewhere and determined the process may be rel-
           evant to setting up new high-priority missions, such as that in Tripoli.  Furthermore,
           although it may be difficult to get officials at the highest levels of relevant agencies to
           make projections for lower priority U.S. missions, the Embassy Baghdad staffing ex-
           perience may hold lessons regarding the offshore location of administrative functions
           and the interagency sharing of administrative support.  These objectives are among the
           Department’s long-term goals.   



Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005       		   27 27	
     Review of Security Programs at U.S. Embassy Baghdad
     (ISP-IQO-05-60)

     OIG reviewed the security programs serving Embassy Baghdad to determine the funding
     requirements and to identify areas that are particularly challenging and costly.
     	
     The cost of protecting U.S. diplomatic personnel and facilities in Iraq is very high.  The
     Bureau of Diplomatic Security (DS) program will cost approximately 74 percent of the
     total funds available for embassy operations in FY 2005.  Current funding is insufficient,
     and the Department needs additional supplemental appropriations to continue mis-
     sion operations.  Security costs are expected to rise in future years as the U.S. military
     presence diminishes and Embassy Baghdad assumes more responsibility for securing
     its facilities and personnel.  The budget requirements for FY 2005 and beyond may be
     considerably greater than anticipated.  

     Managing such an extensive and expensive program challenges the mission and the
     Department.  DS is establishing a global contract for protective security services that will
     contain costs and involve services that have more uniformity.  In addition, DS has iden-
     tified the need for seven additional headquarters positions to manage protective security
     contracts and monitor contract compliance.  OIG believes the positions are urgently
     needed.

     OIG surveyed a sample of mission employees and found that most respondents were
     pleased with the security programs and with mission management’s actions to inform
     employees of security situations and policies.  However, a significant number of current
     employees are dissatisfied with access control procedures and emergency preparedness.  
     Many employees wanted more timely information about security threats and incidents.



     CONSULAR AFFAIRS

     Inspection of the Bureau of Consular Affairs, 	
     Office of Overseas Citizens Services, Office of 	
     Children’s Issues (ISP-CA-05-68)

     The Bureau of Consular Affairs’ (CA) Directorate of Overseas Citizens Services, Office of
     Children’s Issues, provides service to children abducted from the United States, to their
     left-behind parents, and to American citizens who seek to adopt children abroad.  The
     Abduction and Prevention units operate efficiently and effectively but have inadequate staff
     to meet all the demands on these units.  The Adoption unit plays a key role in the complex
     process that will, in the near future, permit the United States to adhere formally to The
     Hague Adoption Convention.  OIG made recommendations to realign staffing, require
     training, and improve supervision.

			
 28                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   28	
               Inspection of the Bureau of Consular Affairs, Office of 	
               Policy Review and Interagency Liaison (ISP-CA-05-62)

               CA’s Office of Policy Review and Interagency Liaison (PRI) has multiple roles, including
               providing legal advice to the Assistant Secretary and serving as the principal drafting office
               for key regulations to implement the new Hague convention on international adoptions.  
               A separate operational unit provides assistance to victims of crime or terrorism abroad.  
               PRI successfully meets its responsibilities, but resources are barely adequate and future
               requirements are not entirely clear.

               OIG noted needed program improvements, including relocating the victims assistance
               unit to the Office of American Citizens Services, to allow PRI to focus on its core services.
               OIG also found that CA management needed to define better Department procedures
               for new employees working on implementing regulations related to The Hague Adoption
               Convention, and PRI attorney advisers need additional staff resources to free them from
               time-consuming support tasks.


                Inspection of the Bureau of Consular Affairs, Office of
                the Executive Director 	
                (ISP-CA-05-05)

                The Bureau of Consular Affairs, Office of the Executive Director (CA/EX) is one of the
                largest executive offices in the Department.  It supports three directorates and 4,500
                consular staff at over 200 overseas posts,  and also provides a range of services to some
                1,900 direct-hire employees at 18 domestic visa and passport operations countrywide.  
                The office is customer-focused but has only recently begun to evaluate its own structure
                and capacity in light of changing priorities after September 11, 2001.  The Depart-
                ment’s extensive role in supporting the border security program is funded in large mea-
                sure by the over $600 million collected and retained from consular fees and allocated
                through CA to all regional bureaus and seven functional bureaus.  CA/EX’s role in the
                management and allocation of the consular fees gives it an unusually high profile in the
                Department.

                CA/EX’s Consular Systems Division’s  remarkable efforts to upgrade consular automat-
                ed systems, both pre-September 11, 2001, and even more significantly post-September
                11, 2001, have had a positive effect on the Department’s technology capability as a
                whole.  

                OIG identified areas for improvement during the inspection, including needed staff-
                ing increases in the human resources division, improved oversight of contracts, better
                controls over U.S. passports and visa foils, and most importantly, designation of the
                Consular Systems Division’s director as the Bureau’s Chief Information Officer.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005    		        29 29	
                    OIG Report Strengthens Nonimmigrant Visa process

             Acting quickly and aggressively to comply with five recommendations
             in an OIG review of nonimmigrant visa adjudications, (ISP-CA-05-56),
             the Bureau of Consular Affairs on June 23, 2005, cabled all visa-issuing
             posts with instructions that will further strengthen already strong guid-
             ance on the visa referral process. The OIG report called for improved
             consistency and oversight of visa referrals, which in the past have been
             vulnerable to abuse and internal malfeasance. Under the new guidance,
             each post must submit annually its visa referral policy for review by the
             Bureau’s Directorate for Visa Services.

             Generally, initial reviews of the referral policies submitted by the posts
             were found to be comprehensive and clear. Some posts, however, were
             found to be deficient in their instructions to mission officers referring
             visa applicants to the consular section. These referral policies were
             returned to posts for correction. As called for by OIG, the new instruc-
             tions clarify the role of the Chief of Mission as being responsible for the
             implementation and supervision of the post’s Mission Referral Policy.
             This guidance also responds to those infrequent instances when visa of-
             ficers encounter real or perceived pressure to issue visas exerted on them
             outside the visa referral system by senior officers. For such cases, OIG
             recommended establishing a new mechanism that allows the visa officer
             to discuss these cases with an experienced neutral party in the Depart-
             ment: a visa program ombudsman. CA designated the managing direc-
             tor of the Visas Services as the new ombudsman.




     POST INSPECTIONS

     Inspection of Consulate General Hong Kong (ISP-I-05-59)

     Hong Kong is significant for its diplomatic importance and the large physical size of
     the consulate general.  Consulate General Hong Kong’s outreach and public diplomacy
     programs are effective and reflect U.S. policy.  The consulate general’s outreach and
     substantive reporting and visitor-support efforts were particularly highly rated by those
     in Washington that use these services.  Visiting delegations are effectively helping to
     advance U.S. priorities, and law enforcement cooperation is particularly strong and well
     coordinated.




			
 30                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   30	
              Consulate General Hong Kong’s success has been diminished by a failure to attend to
              basic mission management.  Many mission employees see the consulate general’s front
              office as being aloof and not open to alternate viewpoints.  However, there are no visible,
              substantive shortcomings in the solid performance of most of the consulate general’s sec-
              tions and agencies and the general effectiveness of section leaders as managers.  



                             Rightsizing Flexibility: The Example of Consulate General
                                                      Hong Kong

                  OIG commended Consulate General Hong Kong for successfully managing
                  the change in that post’s profile from a China-watching post in the early 1990s
                  to a smaller, more focused mission in 2005. Total American staffing levels for
                  the mission had declined by about one-third over a 15-year period at the time
                  of OIG’s visit, consistent with the Department’s rightsizing priorities.




              Inspection of Embassy Dili, East Timor (ISP-I-05-30)

              Embassy Dili is thinly staffed and suffers from personnel gaps.  The Ambassador, who
              has strong human rights and regional experience, receives exceptional support from the
              deputy chief of mission, who functions also as the management and security officer, a
              workload that OIG questions.  OIG recommended that the embassy fill three American
              staff positions to correct the staffing problems.

              OIG found that reporting to Washington had improved since OIG’s last visit, but that
              economic and social factors were missing.  Other concerns included lack of training,
              construction challenges, and needed improvements in information technology.


              Inspection of Embassy Hanoi and Consulate General
              Ho Chi Minh City, Vietnam (ISP-I-05-28A)

              The U.S. relationship with Vietnam is undergoing bilateral developments that were
              unimaginable when the war in Vietnam ended in 1975, and Embassy Hanoi appears de-
              termined to help spur Vietnam’s transformation, as indicated by the top ranking it gave
              to economic growth and development in its Mission Performance Plan.  

              The consulate general at Ho Chi Minh City is well led and has good morale.  Although
              relationships between the embassy and consulate general have greatly improved, the
              embassy must engage in a more proactive effort to integrate the consul general into the
              country team.



Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		     31 31	
     The mission has been very productive, but OIG found some weaknesses. Consular ser-
     vices require improved coordination, although most work is satisfactory.   The chancery
     is overcrowded and unsafe, and the embassy should elicit fuller Vietnamese government
     support for acquiring a site for a new compound.


     Inspection of Embassy Jakarta and Consulate General
     Surabaya, Indonesia (ISP-I-05-29A)

     Embassy Jakarta experienced perhaps its finest hour during the December 2004 tsunami
     crisis, when the entire mission responded immediately and the public affairs section, in
     particular, made an all out effort that enhanced Indonesians’ view of the United States.
     The Ambassador plays a crucial leadership role at an embassy under a critical threat from
     terrorism and has correctly assessed counterterrorism as the embassy’s top goal, engaging
     the combined efforts of the full mission.  

     Political and economic reporting is timely, sufficient, and analytical and administrative
     operations for the past three years have been managed well by a senior management
     counselor.  OIG found some shortcomings, including problems with consular manage-
     ment, space, and staffing, management control weaknesses especially in contracting for
     health insurance, and needed investment in the information technology structure.


     Inspection of Embassy Santo Domingo, Dominican 	
     Republic (ISP-I-05-32A)

     Through effective leadership and influence, Embassy Santo Domingo skillfully man-
     aged to keep U.S.-Dominican bilateral relations on a steady and positive course in the
     transition to a new government in 2004.  The embassy now has important, strategic,
     and helpful contacts in the new government.  The embassy also succeeded in advancing
     negotiations for the Central America Free Trade Agreement, one of the top U.S. foreign
     policy priorities for the region, by encouraging the Dominican legislature to remove legal
     impediments to a free trade agreement.   

     Consular officers and their Dominican colleagues process over 75,000 nonimmigrant
     and over 42,000 immigrant visas (third largest in the world) annually and collect $12
     million in annual revenues.  OIG made recommendations to increase consular staff ap-
     propriately.  OIG also identified other concerns in administrative support, particularly in
     the housing and maintenance units.




			
 32                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   32	
                           Positive Results From Regionalization: The Experience at
                                Embassy Santo Domingo, Dominican Republic

                  The Florida Regional Center (FRC) in Fort Lauderdale provides significant regional
                  support to Embassy Santo Domingo, primarily for management operations such as
                  human resources, medical services, training, procurement, and information technol-
                  ogy. Regional officers schedule visits to the embassy for one week, with no more
                  than 60 days between visits. FRC also offers regional administrative teams to posts.
                  In March 2005, an FRC administrative team addressed property and inventory
                  problems in Santo Domingo. The FRC is willing to expand its support to the em-
                  bassy in other areas and is planning a visit by the regional contract and procurement
                  staff. The embassy saves money by regularly using the expanded FRC training
                  program and facility as training in Fort Lauderdale, and it may make expanded use
                  of financial management support as FRC broadens the range of services it offers.




              Inspection of Embassy Islamabad, Pakistan, and 	
              Constituent Posts (ISP-I-05-35A)

              The U.S. mission to Pakistan provides critical support for the U.S. antiterrorism efforts
              in Pakistan and for Operation Enduring Freedom in Afghanistan.  The embassy faces
              challenges from staffing gaps and unaccompanied tours.  One-year assignments result
              in lack of continuity in leadership, program management, and contacts.  Access to the
              embassy and consulate compounds is limited, posing particular problems for public di-
              plomacy efforts to provide people in this overwhelmingly Muslim nation with increased
              access to accurate information about the United States.
                
              A majority of mission personnel are from other agencies, but the Department pays the
              majority of costs for administrative services.  The proposed expansion of other agency
              positions at this post will further strain support services.


              Inspection of the American Institute in Taiwan 	
              (ISP-I-05-24A)

              Taiwan’s recent political changes, its tensions with Beijing, and its continued strong trade
              connections with the United States, all necessitate careful and strong engagement on the
              part of the American Institute in Taiwan (AIT).  The Institute has effectively apprised
              Washington officials of key developments in Taiwan and conveyed American positions to
              local authorities.  AIT’s reporting officers in Taipei and Kaohsiung have provided


Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005        		   33 33	
     exemplary coverage of recent developments. AIT’s director has used his considerable
     expertise to advance U.S. interests.  

     However, OIG determined the director’s leadership had some shortcomings and that
     AIT’s facilities are substandard, prompting operational concerns.  Construction of a new
     office building should be a top priority, although AIT has taken commendable steps to
     improve office space in the interim.

     OIG also determined that AIT’s Washington headquarters is a well-run, efficient op-
     eration.  The office’s biggest need is for more guidance on how to interpret U.S. policy
     toward Taiwan.  The Department could assist AIT and other agencies by updating and
     reissuing to all relevant agencies the helpful guide to U.S. policy that was last issued in
     2002.


     Inspection of Embassy Gaborone, Botswana 	
     (ISP-I-05-38A)

     Embassy Gaborone effectively manages bilateral relations between the United States
     and Botswana.  One embassy focus is implementing the President’s Emergency Plan For
     AIDS Relief (PEPFAR). Interagency coordination to implement PEPFAR is good and is
     overseen by the regional environment and health officer.  However, the embassy should
     seek funding from the Office of the Global AIDS Coordinator to establish a full-time
     PEPFAR coordinator position and fill it locally.

     The mission has proposed the implementation of shared services between the Depart-
     ment and the USAID, under the ICASS system.  The embassy should also review with
     the Centers for Disease Control and Prevention (CDC) ways to minimize duplication in
     services provided by CDC and ICASS.


     Inspection of Embassy Harare, Zimbabwe (ISP-I-05-37A)

     Embassy Harare effectively focuses on the two main U.S. goals in Zimbabwe, promoting
     democratic systems and practices and addressing the crisis associated with HIV/AIDS.  
     The Ambassador has effectively spurred a senior-level Washington review of the U.S.
     policy toward Zimbabwe and has actively participated in that review.

     American staffing is generous in comparison with other African posts.  The embassy
     should conduct a rightsizing review in preparation for the move to a new embassy com-
     pound to determine whether some American and local-hire positions could be elimi-
     nated.  Although the mission provides comprehensive administrative support services to
     the Department and other agencies at post, OIG believes there may be more scope for
     sharing interagency services, particularly with USAID.



			
 34                  Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   34	
              Inspection of Embassy Lusaka, Zambia (ISP-I-05-39A)

              Embassy Lusaka has rapidly expanded its activities under PEPFAR.  Interagency coordi-
              nation on this health crisis is exceptional, and a collegial approach characterizes the U.S.
              agencies involved in supporting the mission’s goals.  However, the budgets for operation-
              al support at Embassy Lusaka have not kept pace with the surge in program resources
              flowing into Zambia.  Without increases in its operating budgets, the embassy will inevi-
              tably need to reject additional programming so as not to eliminate current activities.

              Regional human resources support from Embassy Harare has been limited, and several
              key personnel issues require immediate attention.  The embassy has asked the Depart-
              ment to establish and fill a human resources position urgently and OIG supports this
              request.


              Inspection of Embassy Lilongwe, Malawi (ISP-I-05-36A)

              Embassy Lilongwe has serious staffing gaps that began with the departure of the  
              Ambassador in 2004 and include long-term vacancies in the political section, general
              services office, and information management section.  Despite these gaps, and high staff
              turnover in the past 12 months, the interagency team at Embassy Lilongwe has worked
              with skill and commitment to implement mission goals.

              The embassy has identified Malawi’s qualifications for a threshold program under the
              Millennium Challenge Account (MCA) and galvanized interagency economic reform
              and democracy and governance teams to help Malawi turn a corner in its development.  
              The reward for Malawi could be an allocation of up to $20 million under the MCA.  
              Em-bassy Lilongwe is reviewing staffing implications of such substantial funding.

              This year, Malawi began participating in PEPFAR, and this will require robust direction
              by embassy leadership.  However, the embassy’s executive office has exercised minimal
              oversight of the global health agenda that has dominated the work of the technical agen-
              cies at this post for years.



              Compliance Follow-up Review of Embassy 	
              Kathmandu, Nepal (ISP-C-05-22)

              OIG conducted a compliance follow-up review of Embassy Kathmandu.  The new man-
              agement team of Ambassador, deputy chief of mission, and management officer, which
              the Department sent to Kathmandu in response to the January 2004 inspection, has
              improved post morale, the visa referral program, and the mentoring program for entry-
              level officers.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005    		     35 35	
          Inspection of Embassy New Delhi, India (ISP-I-05-21A)

          Embassy New Delhi and its constituent posts skillfully manage the complex and grow-
          ing U.S-Indian relationship and appropriately focus on potential U.S. benefits from
          expanding economic ties and cooperation in space, civilian nuclear energy, high-technol-
          ogy trade, and missile defense.  The growth in U.S.-Indian relationships presents several
          management challenges.  If Mission India is to address the rapid growth in demand
          for consular services, all mission elements and the Department must focus on consular
          support.  Without a creative response to this growth, the mission risks focusing on visa
          services to the detriment of all other matters.

          The Department must also plan for the opening of a new consulate in a fifth Indian city
          very soon.  OIG concurs with the embassy’s choice of Hyderabad and believes prelimi-
          nary planning must begin now.  Staffing will need to increase in India, but the mission’s
          request for more than 30 additional positions is unrealistic.  The embassy must prioritize
          its staffing requirements, focusing on shortages in diplomatic security, consular affairs,
          and public diplomacy.




                                U.S. India fund and the Interim Fund

               At the Ambassador’s request before OIG’s arrival, Embassy New Delhi’s 	
               financial management officer conducted a comprehensive study of the U.S.
               India Fund and the Interim Fund. The study showed that the U.S. India Fund
               had ten U.S. government agencies with programs still active and the Interim
               Fund had six U.S. government agencies with programs still active and had
               outstanding funding obligations of approximately $5.9 million. More surpris-
               ingly, there was approximately $3.4 million in the U.S. India Fund accounts
               from expired programs and $11.2 million in the Interim Fund from expired
               programs and unobligated interest. This nearly $15 million represents a valu-
               able resource for furthering U.S.-India relations and should be used. OIG
               recommended that the Department establish a sunset date for active U.S. 	
               India Fund and Interim Fund projects that still have obligated but undisbursed
               balances and inform the relevant U.S. government agencies of this action.
               Following completion of the projects, any remaining obligated monies should
               be consolidated into the appropriate fund.




			
    36                   Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	        36	
                                      U.S. Government Presence in Hyderabad

                 In its FY 2006 Mission Performance Plan, Embassy New Delhi asked for the
                 creation of an American presence post in Hyderabad. As proposed, one Ameri-
                 can public diplomacy officer and one local-hire employee would focus on Mus-
                 lim outreach, provide limited American citizens services, and boost U.S. exports.

                 India’s sixth largest city, Hyderabad has a population of nearly six million and is
                 the capital of Andhra Pradesh, one of the most economically progressive states
                 in India. The city is also the generic drug manufacturing center of the world
                 and has major biotechnology and pharmaceutical research facilities. As a result
                 of the information technology, commercial, and research activity, Hyderabad is
                 home to a growing number of American companies, such as Microsoft, and a
                 private international school catering to expatriates. A growing number of high-
                 level U.S. officials have visited Hyderabad. A world-class, international airport is
                 now under construction in Hyderabad and is to open in 2008. Consulate General
                 Chennai reports that residents of Andhra Pradesh, including Hyderabad, account
                 for 35 percent of the consulate general’s heavy and growing nonimmigrant visa
                 workload.

                 In light of the need for expanded visa processing facilities, the heavy future U.S.
                 involvement in India’s high-technology industries, and the desirability that pub-
                 lic diplomacy efforts reach a sizable influential Muslim population, OIG believes
                 establishing an American presence post in Hyderabad will not be enough and
                 recommended that the Department establish a full-service consulate there no
                 later than 2008.




              Inspection of Embassy Bandar Seri Begawan, Brunei
              (ISP-I-05-20A)

              Embassy Bandar Seri Begawan management advocates energetically for U.S. policy in
              a predominantly Malay Islamic nation.  Although there are few American businesses in
              Brunei, embassy management has maximized regional opportunities to promote U.S.
              trade and business opportunities in the country.

              OIG determined that Embassy Bandar Seri Begawan should transfer almost all of its
              administrative services to regional centers.  Although there have been continual staffing
              problems at the embassy, there is a good communications infrastructure in the region,
              and strong regional support is available.  Were the embassy’s administrative services to
              be provided elsewhere in the region, the embassy could serve as a model for rightsizing a
              small mission.  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   37 37	
     Protection and American citizens services is needed for the small number of Americans
     who live and visit Brunei, but OIG could not justify the amount of resources required to
     provide nonimmigrant visa services in a country that participates in the Visa Waiver pro-
     gram.  OIG recommended transferring Embassy Bandar Seri Begawan’s nonimmigrant
     visa processing to Embassy Singapore, where the immigrant visa workload is currently
     processed.


     Inspection of Embassy Kuala Lumpur, Malaysia
     (ISP-I-05-19A)

     The Malaysian government and the embassy’s leadership are in transition.  Overall, the
     post performs well, considering the complexity and challenges of the local political envi-
     ronment.  The embassy has been effective in policy advocacy and has the highest com-
     mitment to protecting U.S. economic interests and promoting U.S. exports.

     The embassy seeks to maximize public diplomacy opportunities.  OIG encouraged em-
     bassy management and the public affairs officer to translate this dynamic into balanced,
     long-range, mutual understanding programs for groups such as Malaysian students.

     OIG made several recommendations related to public diplomacy, including to convert
     the Lincoln Resource Center to a smaller information resource center, to revise the
     BiNational Agreement on educational exchanges to ensure uninterrupted operation of its
     board of directors, and to seek guidance from the Department on accounting practices
     for Fulbright commissions.



     Inspection of Embassy Singapore (ISP-I-05-18A)

     Embassy Singapore is important to U.S. interests in Southeast Asia.  Embassy Singa-
     pore’s high quality of life, adequate office space, and sufficient ICASS funds make it a
     good regional base for many other federal agencies.  The volume and complexity of this
     regional work outweigh the important though small bilateral dimension of the embassy’s
     workload.
         
     The office of public affairs conducts robust, model public diplomacy programs and
     has made major inroads in reaching key Muslim audiences.  The OIG report singled
     out Public Affairs support to the National Library Board’s partnership with Singapore’s
     Ministry of Education, saying this support allows the office to cut through bureaucratic
     procedures to gain easy access to several junior colleges that have a large number of
     students interested in higher education in the United States.  In addition to promoting
     U.S. educational information to Singaporean students and educators, the office of public
     affairs uses the partnership to promote other U.S. educational exchange programs.




			
 38                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   38	
                                              Exemplary Compliance Efforts

                       After OIG’s departure from Embassy Singapore, the Ambassador directed
                       that the deputy chief of mission (DCM) establish an embassy mechanism
                       for immediate compliance with OIG’s recommendations. The DCM
                       forwarded the first report to OIG at its new inspection site within two
                       working days of OIG’s departure from the mission. Most of the recom-
                       mendations were in advanced stages of compliance. The DCM reported
                       compliance or near-compliance with formal recommendations and infor-
                       mal recommendations before OIG had returned to Washington.




               Inspection of Embassy Damascus, Syria (ISP-I-05-17A)

               Embassy Damascus is performing admirably and has superb interagency cooperation
               and coordination.  However, the sanctions imposed on Syria by the Syria Accountabil-
               ity and Lebanese Sovereignty Restoration Act and other U.S. policies are creating costs
               and barriers for embassy operations and programs.  The embassy has adjusted well to
               these circumstances and is effectively promoting the tougher, sharply focused U.S. policy
               objectives.

               The Ambassador has invigorated the embassy’s public diplomacy programs.  She is en-
               hancing the embassy’s insight into high-priority issues in Syria by using the public affairs
               section’s access to important Syrian audiences among the media, Islamic groups, nongov-
               ernmental organizations, and human rights groups.  The embassy’s Fulbright and other
               exchange programs as well as English-teaching programs enable it to reach a diverse
               Syrian audience.


               Inspection of Embassy Beirut, Lebanon (ISP-I-05-16A)

               Lebanon has the attention of policy makers, who see developments in that nation as
               potentially helpful in achieving and spreading democracy in the Middle East.  Following
               the United Nation’s Security Council Resolution 1559 in September 2004, which calls
               for Syrian withdrawal from Lebanon, the embassy made submission of a revised Mission
               Performance Plan a priority.  

               Embassy Beirut’s tour of duty policy has advantages and disadvantages.  One-year tours
               attract bidders and are short enough to prevent the employee from chafing under the
               security restrictions, but they negatively affect continuity and planning.  Moving to a
               two-year tour of duty would help improve performance and management, but could
               adversely affect morale.  OIG recommended gradually reducing the number of rest and
               recuperation breaks and continuing tours of less than two years for some positions.
Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		       39 39	
     Inspection of Consulate General Jerusalem
     (ISP-I-05-15A) 	

     Consulate General Jerusalem is responsible for the policy relationship with the Palestin-
     ian Authority and for contact with 2.1 million Palestinians in Jerusalem and the West
     Bank.  It also serves roughly 90,000 American citizens, but is neither a subordinate post
     of Embassy Tel Aviv nor a post that has been accredited to Israel.  Nonetheless, the con-
     sulate general is fast becoming a full-fledged mission.  

     OIG made recommendations regarding the impact of the peace process on mission
     operations.  For instance, responding to Israel’s planned disengagement from Gaza in
     mid-2005, the Bureau of Near Eastern Affairs, Embassy Tel Aviv, and Consulate General
     Jerusalem should develop a plan to transfer responsibility for the Palestinian territories
     from Tel Aviv to Jerusalem and for the placement of Gaza in Jerusalem’s consular district.  
     The consulate general will also soon face a serious security resource challenge owing to
     increased U.S. support for the truce between the Palestinian Authority and Israeli forces.  
     The mission has asked for additional armored vehicles and resources to support the
     anticipated resumption of travel to the West Bank.  The Bureaus of Diplomatic Security
     and Near Eastern Affairs must address these requests expeditiously.


     Inspection of Embassy Tel Aviv, Israel (ISP-I-05-13A)

     Executive policy direction and the management of Embassy Tel Aviv operations are
     excellent, as are interagency coordination and cooperation.  However, the embassy must
     address its space problems.  The revival of the Middle East Peace process presents serious
     resource and management issues, such as the need to resume travel and operations
     in the dangerous Gaza and West Bank areas.  The embassy should work with other agen-
     cies at post and with Consulate General Jerusalem to develop a unit that supports official
     visitor travel, which will provide efficiencies and cost-savings.

     The embassy’s in-country language immersion program, which brings students to flu-
     ency before they arrive for duty in Tel Aviv, is excellent; it should expand and be emu-
     lated elsewhere.  



     DOMESTIC BUREAUS

     Inspection of the Bureau of Oceans and International 	
     Environmental and Scientific Affairs (ISP-I-05-40)

     The Bureau of Oceans and International Environmental and Scientific Affairs (OES)
     implements U.S. commitments in a multitude of international forums and promotes
     U.S. foreign policy through an array of partnerships.  However, a lack of clarity about



			
 40                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   40	
              the roles of OES and the Science and Technology Adviser to the Secretary of State has
              caused confusion in Washington and abroad.  OIG recommended that the Department
              define the roles, responsibilities, authority, and accountability of OES and the Science
              Adviser.

              Generally, other U.S. agencies respect and appreciate OES’s work and leadership in coor-
              dinating and promoting U.S. foreign policy in the areas of science, technology, and the
              environment.  However, OES leadership should improve the executive office manage-
              ment, human resources operations, and management controls.  In addition, the bureau
              needs to clarify the goals and procedures of its grants program and make its grants pro-
              cess more transparent to OES staff and embassies interested in submitting grant propos-
              als.    


              Inspection of the Office of Science and Technology 	
              Adviser to the Secretary (ISP-I-05-42)

              The Department established the position of Science and Technology Adviser to the
              Secretary (STAS) to ensure the Department’s awareness of the nation’s science resources
              and improve its ability to draw upon the American scientific community for advice and
              counsel.  OIG recommended that the Department define the roles, responsibilities,
              authority, and accountability of OES and STAS to eliminate existing competition and
              confusion.  

              STAS has expanded some of its activities, such as its science fellows program, and cre-
              ated several innovative programs.  At the same time, this small office is overstretched in
              trying to manage so many complex initiatives.  OIG recommended that STAS establish a
              mechanism to evaluate its initiatives, manage donated funds, and eventually transfer the
              projects to appropriate, willing operational bureaus.


              Compliance Follow-up Review of the Bureau of
              Democracy, Human Rights, and Labor (ISP-C-05-41)

              OIG conducted a compliance follow-up review of the September 2003 inspection of the
              Bureau of Democracy, Human Rights, and Labor (DRL).  OIG made a recommenda-
              tion on an unresolved problem regarding the functioning of the joint Office of Oceans
              and International Environmental and Scientific Affairs-DRL executive office.  In addi-
              tion, OIG found that DRL had not resolved problems in the Office of Country Reports
              and Asylum Affairs and the Office of International Labor Affairs, and made recommen-
              dations for those offices.  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		    41 41	
     Inspection of the Bureau of International Narcotics and
     Law Enforcement Affairs (ISP-I-05-14)

     In a period of extraordinary challenges, the Bureau of International Narcotics and Law
     Enforcement Affairs (INL) has a solid record of achievement in Iraq, Afghanistan, and
     elsewhere.  INL does an effective job of planning and coordinating counternarcotics
     programs in Latin America, including the Andean Counterdrug Initiative. However,
     INL needs to address its overtaxed resources and organizational weaknesses, and more
     promptly to restructure itself to deal effectively with its policy-sensitive Iraq and Afghan-
     istan programs.  As an interim step, OIG recommended that INL immediately 	
     establish individual working groups to manage its programs in Iraq and Afghanistan.  
     INL must also proceed with its long-delayed reorganization and needed personnel 	
     increases to relieve the strains within the bureau caused by long-term inadequate staffing
     and new pressing demands.  With the major growth of its programs, INL must 	
     strengthen its mechanisms for oversight of procurement and contract compliance and
     property management.




                                       BEST PRACTICES

     Consulate General Jerusalem

     Best Practice: Combined Mission Contact Database

     Issue: Following the outdated practice of most overseas missions, Consulate General
     Jerusalem maintained two separate and incompatible contact database systems, one
     for the public affairs section and a second for all other mission elements. The flow
     of information between the two lists was minimal. Public affairs information and
     programs relied heavily on the public affairs list and other mission programs relied
     almost exclusively on the list maintained by the protocol assistant.

     Response: Consulate General Jerusalem enlisted the assistance of the Regional Sup-
     port Center in Frankfurt to install the “contacts” database system that was developed
     for use by missions overseas. Mission personnel were trained in its use and urged to
     use the system in their contact and representational work. The database was installed
     on the OpenNet server and is being made available to all mission personnel on their
     desktops.

     Result: Consulate General Jerusalem has successfully converted to one contact data-
     base for all mission public diplomacy and representational functions. Records for all
     individual mission contacts are maintained by a public affairs Foreign Service nation-
     al and the mission’s protocol assistant based on input from individual staff members.
     All mission employees use the system for contact management.




			
 42                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   42	
                Embassy Singapore

                Best Practice: American Connection, U.S. – Singapore an Outreach 	
                Project to Diverse Audiences

                Issue: Embassy Singapore needed to gain direct access to a broad cross-sec-
                tion of Singaporeans through a wide variety of programming options and
                through materials promoting information about the United States.

                Response: The National Library Board’s unique partnership with the Min-
                istry of Education allows the embassy office of public affairs to cut through
                bureaucratic procedures to gain easy access to several junior colleges that
                have a large number of students interested in pursuing their higher education
                in the United States. In addition to promoting U.S. educational information
                to Singaporean students and educators, the office of public affairs will use the
                National Library Board-Ministry of Education partnership to promote other
                U.S. educational exchange programs.

                Result: The embassy’s office of public affairs sees this partnership as an
                excellent opportunity that will help convince a future generation of leaders to
                continue a strategic partnership that is now important for the United States. In
                addition, the office has access to reach out to a non-elite, multiracial group of
                young Singaporeans, including young Malay and Indian students who would
                be outside of the normal reaches of the programs.

                Best Practice: Consular Outreach-Predeparture Orientation Seminar

                Issue: A U.S. bank’s student banking division recognized that Singaporean
                students interested in attending foreign schools needed to know what to expect
                if they chose a school in the United States.

                Response: As a part of consular outreach, the embassy’s nonimmigrant visa
                unit, the U.S. Education Information Center, the Department of Homeland
                Security’s Citizenship and Immigration Services regional officer, and local
                international student networking groups provide speakers. Topics include
                the student visa and I-20/Student and Exchange Visitor Information System
                program, driver’s licenses, safety and security issues, residence on- or off-
                campus, good study habits, and tax and financial responsibility in the United
                States. The embassy’s handout contains frequently asked questions and
                answers about the student visa application and optional practical training. At-
                tendees and their parents are able to ask questions at the end of each segment.

                Result: This popular and innovative seminar was given twice in one day to ac-
                commodate the demand. Recruitment by U.S. universities has increased; the
                issuance of student visas is increasing and exceeds pre-September 11, 2001,
                numbers. After Australia, the United States is the most popular destination for
                Singaporean students.



Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   43 43	
     Embassy Tel Aviv

     Best Practice: Hebrew Language Immersion Program

     Issue: Students tend to depart from the Foreign Service Institute’s School of Lan-
     guage Studies with less than adequate fluency, vocabulary, and familiarity with
     Hebrew as spoken in Israel. It takes several months for them to develop language
     skills adequate to manage the visa interview workload or other assigned duties.

     Response: Embassy Tel Aviv, together with the Foreign Service Institute and an
     Israeli government institute famous for teaching Hebrew to immigrants, developed an
     intensive, four-week language immersion program designed for the needs of Foreign
     Service officers.

     Result: Officers in language-designated positions enter on duty with substantially
     enhanced language skills and are able to perform at a significantly higher level. Par-
     ticipants are consistently rated as among the most productive members of the em-
     bassy staff.

     Best Practice - Electronic Tracking of Motor Pool Operations

     Issue: The Department lacks an efficient system of managing the motor pool pro-
     gram. Procedures and recordkeeping are tedious and cumbersome.

     Response: Embassy Tel Aviv procured an electronic tracking system that streamlines
     procedures and organizes pertinent data for fleet management.

     Result: The motor pool has become effective in managing its complex operations
     electronically, without paper. Management controls are enhanced.




			
 44                Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   44	
              Significant management success in resolving and implementing 	
              recommendations

              One of the benefits of an inspection is that the process promotes effective and account-
              able management at post.  Where posts suffer from poor management, inspections can
              affect staffing at the highest levels.  One example was OIG’s inspection of the U.S. In-
              ternational Boundary and Water Commission, where the inspection found that internal
              management problems had engulfed the Commission, threatening its essential responsi-
              bilities for flood control and water management in the American Southwest.  Following
              the OIG inspection, the commissioner announced that he would resign in August 2005 
              and an acting commissioner was appointed.

              In its inspection of Embassy Paris, OIG recommended that the mission develop a joint
              management structure that provides full services for the U.S. Mission to the Organiza-
              tion for Economic Cooperation and Development and the U.S. Mission to the United
              Nations Educational, Scientific, and Cultural Organization, through International Co-
              operative Administrative Support Services.  This will reduce overall administrative costs
              for the Department by an estimated $600,000 annually, and further rightsize local staff
              in Paris.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   45 45	
			
 46       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   46	
                                  INFORMATION TECHNOLOGY




              OIG evaluates IT information management and information system security in the
              Department through a program of evaluations, inspections, and reviews.  During this
              reporting period, OIG completed its annual evaluation of the Department’s information
              security practices, completed one memorandum report summarizing issues found at the
              four Regional Information Management Center (RIMC) operations, completed another
              report that evaluated the Department’s integration of the public diplomacy network into
              the Department’s network, and inspected embassies to determine the effectiveness of the
              comprehensive information management and information system security program pro-
              mulgated by the Department.  Additional security concerns are reported in the classified
              semiannual report.




              FEDERAL INFORMATION SECURITY MANAGEMENT ACT
              EVALUATION

              Review of the Information Security Program at the 	
              Department of State (IT-I-05-09)

              OIG found that the Department’s information security program and practices continue
              to evolve under the leadership of the acting Chief Information Officer.  The Department
              has taken several actions to improve the effectiveness of the Department’s information
              security program since last year’s independent evaluation.  The Department is upgrading
              the information technology application baseline to strengthen the connections between
              enterprise architecture, e-Authentication, privacy, systems authorization, the plan of ac-
              tion and milestone (POA&M) process, and the capital planning process.  To standardize
              management of self-assessments, POA&Ms, and performance measures, all system own-
              ers and information system security officers (ISSO) are to use the Department’s automat-
              ed web-based tool.  Another Department web-based training tool provides all employees
              with an annual information security awareness briefing.

              Additionally, the Department has initiated a project to be completed within the next
              three years to identify the number of contractor services or facilities performing work
              for the Department using their own systems or connecting to the Department networks.  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		    47 47	
     The Department has taken a proactive approach to improve patch management opera-
     tions and customer service.  The Department continues to operate a successful and
     robust cyber incident response program.

     However, OIG found several areas that require senior management attention.  The
     Department still does not have a complete inventory of systems that includes major ap-
     plications, minor applications, and general support systems.  The Department’s certifica-
     tion and accreditation process has not been fully implemented.  All general support sys-
     tems and major applications were certified and accredited during the 18-month special
     project, and the next phase was to include the post operations, which most Department
     officials believe are the weakest link in the layered security approach that the Depart-
     ment has implemented.   Not all aspects of this project have been incorporated into the
     current evaluation and verification process, and the chief information security officer
     (CISO) has not provided formal guidance.

     The separation of the cyber security roles and responsibilities continues to affect the
     Department’s information security program.  The August 2004 Cyber Security Roles and
     Responsibilities Matrix assigns to the DS many operational responsibilities including the
     systems-related site evaluation and verification function.  OIG found that the meetings
     between DS and the Bureau of Information Resource Management (IRM) generally do
     not result in clear statements of work, assignment of responsibilities, and establishment
     of milestones.  As reported last year, the Department has no effective coordinating or
     monitoring mechanism to ensure that assigned responsibilities are accomplished.  

     Furthermore, implementation of information security at overseas posts and domestic
     bureaus continues to require Department attention.  OIG observed problems with ISSO
     duties, patch management, contingency planning, and inappropriate use at many of the
     36 sites visited.
     	


     Evaluations

     Summary Evaluation of the Regional Information 	
     Management Centers (IT-I-05-05)

     Although OIG found RIMC management to be effective, and constituent posts rated
     customer support as satisfactory, the types of service provided and the organizational
     structures that provide it will have to change to adapt to changing needs within the De-
     partment.  The IRM strategic plan is moving toward centralized system administration,
     maintenance, and software application support, as well as reduced overseas storage of
     electronic	data	and	applications.		The	role	of	onsite	IT	professionals	will	have	to	adapt	
     from that of actively managing networks to being an extension of the central




			
 48                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   48	
              management system, with functions, such as exchanging equipment as necessary, based
              on central direction.  While such centralization changes the requirements for full-time
              IT professionals at post, it also affects the need for regional support personnel in both
              technical diciplines and operational oversight. Such changes require remodeling the
              RIMC concept to one of smaller, more widely dispersed regional support centers with
              more direct oversight responsibility and accountability for smaller sets of posts.  IRM’s
              Information Technology Working Group has recently begun to discuss how the RIMCs
              will fit into the changing IT landscape.  

              OIG identified several areas where changes in operations would improve overall Depart-
              ment performance.  Currently, each RIMC operates under a different organizational and
              reporting structure, with varying support responsibilities and resources.  Standardizing
              the operations, organization, and staffing of the RIMCs can improve the overall efficien-
              cy and customer support provided through the centers.  Additional operations officer
              positions are necessary to provide adequate operational assistance for constituent posts.  
              IRM needs to take steps to ensure the long-term viability and quality of its technician
              workforce.  Digital technicians at the RIMCs do not have any administrative authority
              within the Department’s network architecture, which creates difficulties in performing
              remote diagnostics when troubleshooting problems over the phone.  Few RIMC techni-
              cians use the Universal Trouble Ticket system consistently, which hampers the collection
              of aggregate data.  The Department’s lack of a telephone switch maintenance contract
              that allows RIMC telephone technicians direct access to the Nortel help desk hampers
              their ability to provide timely customer service.  Finally, there are no memoranda of
              agreement between IRM and the Foreign Service Institute FSI as to how training centers
              located at two of the RIMCs are supposed to operate.


              Evaluation of Department of State’s Public Diplomacy 	
              Network to OpenNet Plus (IT-I-05-08)

              The deployment of OpenNet Plus (ONP) fulfilled the former Secretary of State’s high-
              est information technology priority: to create a computer network providing Internet
              access for all Department employees.  The Under Secretary for Management mandated
              that the merger of the U.S. Information Agency be completed by eliminating the Public
              Diplomacy global network (PDNet) and enhancing the functionality of ONP to meet
              the business needs of the public diplomacy employees.  The Chief Information Officer
              and the Under Secretary for Public Diplomacy and Public Affairs signed an agreement
              in October 2003 stating that all domestic and overseas PDNet services be integrated into
              the ONP network and that alternative mechanisms be found to provide PDNet services
              that could not be supported by ONP.  

              By June 30, 2004, the Department completed the consolidation of PDNet users into
              ONP and enhanced the functionality of the network for meeting the essential business
              needs of the public diplomacy employees.  Department officials believed the project was




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		     49 49	
     successful in meeting its goals by streamlining equipment upgrades, increasing ONP
     speed, and enhancing e-mail attachment capabilities.  However, OIG found that the De-
     partment did not adequately identify alternative mechanisms to provide PDNet services
     that could not be supported by ONP.  The Department experienced an increase in the
     number of Dedicated Internet Networks (DINs) that have been deemed necessary by
     posts to support business processes that are not satisfied through the implementation of
     ONP.  With more than 190 DINs awaiting final approval from the Information Tech-
     nology Change Control Board (ITCCB), the Department has not adequately addressed
     the remaining issues from the PDNet conversion.  

     OIG recommended that the Department design and implement a plan for resolving
     remaining concerns with DIN waiver requests, including the deployment of a develop-
     ment network for the testing and development of applications and programs worldwide.  
     Furthermore, OIG recommended that the Department perform an analysis to determine
     additional costs and benefits for DINs, while establishing clear procedures to be used by
     ITCCB for the approval of waiver requests.   




     POST IT INSPECTIONS
     Embassy Tel Aviv (ISP-I-05-13A)

     Under the leadership of the information management officer and the diligent work of
     the information program center and information systems center staff, the information
     management (IM) and information security program operations have improved consid-
     erably in recent months.  However, OIG identified some key areas where further im-
     provement is needed.  Specifically, Embassy Tel Aviv does not provide sufficient support
     to the consular section and is not adequately performing information system security
     responsibilities because of insufficient IM staff resources.  The IM staff needs techni-
     cal training to ensure continued satisfactory IT support for the embassy.  Finally, the
     embassy’s software security patch management status is not reported accurately by the
     Department’s automated system.   


     Consulate General Jerusalem (ISP-I-05-15A)

     The mission in Jerusalem operates a comprehensive IM and information security pro-
     gram for more than 230 users.  OIG identified some key areas where IM and informa-
     tion security must be improved.  Specifically, the IM staff has insufficient technical
     training to ensure continued satisfactory IT support.  The IM staff also is not properly
     cross-trained to ensure continued satisfactory IT support.  The IM help desk does not
     adequately track and resolve service calls.  The mission has inadequately maintained
     hardware and software inventory records.  Finally, ISSO responsibilities are not being
     performed adequately, and the mission’s software security patch management status is
     not reported accurately by the Department’s automated system.  Consulate general man-
     agement must engage more directly in overseeing and benchmarking IM performance in
     the near future.
			
 50                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   50	
              Embassy Beirut (ISP-I-05-16A)

              Embassy Beirut has an adequate IM program to support its approximately 160 autho-
              rized users.  Several areas require management attention, such as the incomplete infor-
              mation systems documentation and inappropriate material on the unclassified network.  
              Web site modifications are also necessary.  Furthermore, embassy information security
              has several security shortcomings, including deficiencies in the ISSO program.  


              Embassy Damascus (ISP-I-05-17A)

              Embassy Damascus has a good information management program to support approxi-
              mately 215 authorized users.  OIG, however, found some areas requiring management
              attention, such as an inadequate telephone system, inappropriate use of the unclassified
              diplomatic pouch and mail service, inaccurate patch management reports, and the lack
              of a trained alternate ISSO.  


              Embassy Singapore (ISP-I-05-18A)

              Embassy Singapore has a comprehensive IM program to support approximately 213
              authorized users.  OIG found some areas requiring attention including the overseas dedi-
              cated Internet.  Information security at Embassy Singapore could be improved in the
              areas of the ISSO program and network intrusion detection systems.  


              Embassy Kuala Lumpur (ISP-I-05-19A)

              Embassy Kuala Lumpur maintains a comprehensive IM program to support its 201
              authorized users.  The public diplomacy website and storage location of unclassified
              computers with sensitive but unclassified (SBU) information resident on the equipment
              requires management attention.


              Embassy Bandar Seri Begawan (ISP-I-05-20A)

              Embassy Bandar Seri Begawan’s IM and information security program generally meets
              the needs of its approximately 30 authorized users in most areas.  Embassy Bandar Seri
              Begawan’s software security patch management status is incorrectly reported by the
              Department’s automated system.  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   51 51	
     Embassy New Delhi (ISP-I-05-21A)

     Embassy New Delhi and its constituent posts operate extensive IM programs that in-
     clude system administration of unclassified and classified networks, diplomatic and clas-
     sified pouch, radio and telephone maintenance, and telecommunication support.  They
     also provide regional support to other posts in the Bureaus of Near Eastern and South
     Asian Affairs.  All locations in India scored below average on most IM issues in OIG’s
     management operations questionnaires, particularly on oversight, additional local area
     networks, and implementation of the ISSO program.  


     American Institute in Taiwan (ISP-I-05-24A)

     AIT has an extensive IM and information systems security program that operates and
     maintains classified and OpenNet Plus networks; a radio program; and mail, pouch, and
     telephone operations.  AIT also maintains four offsite locations and a branch office in
     Kaohsiung.  AIT’s IM received good scores on OIG’s workplace and quality of life ques-
     tionnaires, but there were problems with the satellite system, the ISSO responsibilities,
     and patch management.  


     Embassy Hanoi and Consulate General Ho Chi Minh City
     (ISP-I-05-28A)

     Embassy Hanoi’s IM office currently meets the IT needs of 178 users at multiple loca-
     tions (chancery, Rose Garden Annex, and general services warehouse) and provides the
     appropriate level of IT security.  However, top IM attention must focus on the infra-
     structure issues of staffing; software; documentation, including policies and procedures;
     patch management; the use of IT; and web sites.

     The functional management questionnaire completed by the embassy presents a better
     picture of post operations than is justified although the post has actively tried to come
     into compliance with Department IM policies and procedures.  The lack of depth in
     the management section required the IM officer to assume duties in other management
     areas, resulting in inadequate attention and focus on implementing and institutional-
     izing necessary IM policies and procedures.  The lack of depth in the IM section itself is
     exacerbated by staffing gaps.


     Embassy Dili (ISP-I-05-30A)

     Embassy Dili’s IM procedures are not systematic and rigorous enough for either the cur-
     rent IM operation or as the operation expands to include classified processing.  Embassy
     management must implement a more structured framework to achieve Department
     objectives.



			
 52                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   52	
              Embassy Santo Domingo (ISP-I-05-32A)

              Embassy Santo Domingo’s IM unit adequately meets the needs of 300 users at the
              embassy compound and four other locations in the city, while satisfying most of the
              Department’s IM and IT security requirements.  OIG found that the office performs
              well, providing a high level of customer service and maintenance over all IM areas.  OIG
              made formal recommendations for post to improve its reporting of actions to correct sys-
              tem weaknesses and deficiencies, and to improve its training IM office staff.  The post’s
              information security program is very organized, and appropriate documentation is up to
              date.


              Embassy Islamabad and Constituent Posts (ISP-I-05-35A)

              Despite no increase in staff, IM programs within Pakistan have been effectively managed
              and met the rapidly expanding IM support needs as the mission became a major hub
              after the September 11, 2001, terrorist attacks.  IM services rated better than average in
              most workplace and quality of life questionnaire categories, but there are opportunities
              to streamline operations through improved help desk automation and greater docu-
              mentation of planning and processes.  In addition, end users identified many areas for
              improvement, but these would require additional resources.  The information systems
              security program is effectively managed.    


              Embassy Lilongwe (ISP-I-05-36A)

              Embassy Lilongwe’s IM office meets the needs of the 94 users at the embassy compound
              and the public affairs section and provides regional systems support to Embassy Luanda
              while meeting most Department IM and IT security guidelines.  OIG provided the
              post with several formal and informal recommendations to address issues pertaining to
              facilities, training, and managing the overseas dedicated Internet local area network in
              the public affairs section.  Also, OIG found weaknesses and recommended actions to
              ensure that post’s unclassified and classified networks remain secure.  Specifically, these
              recommendations address patch-management procedures, implementation of the ISSO
              program, IT contingency planning, and security configuration management.


              Embassy Lusaka (ISP-I-05-39A)

              Embassy Lusaka’s IM office meets the needs of the 229 users at the chancery compound,
              general services warehouse, and public affairs section and meets most Department IM
              and IT security guidelines.  OIG made two formal recommendations to address security
              deficiencies on both networks.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		     53 53	
     Consulate General Hong Kong (ISP-I-05-59)

     Consulate General Hong Kong has a well-managed, customer-oriented IM office that re-
     ceived high scores on the OIG workplace and quality questionnaire.  Nevertheless, there
     are several problem areas requiring attention.

     Consulate General Hong Kong has developed 18 applications, including 14 that other
     posts download for their own use.  These applications have neither gone through the sys-
     tems authorization process, nor been approved by the Department ITCCB.  All custom-
     built applications must be placed into the Information Technology Application Baseline
     and be approved by the Local Change Control Board.  Consulate General Hong Kong
     maintains an overseas dedicated network of 32 connections.  Most of the connections are
     used to host 26 posts that use locally developed appointment systems for visas, passports,
     and birth certificates.  Personnel resources are used to maintain these applications, taking
     staff time that could be used to address other local needs.  



     DOMESTIC IT INSPECTIONS

     Bureau of Consular Affairs, Office of Executive Director
     (ISP-CA-05-05)

     Domestically, CA has an effective IM operation that supports over 500 servers and 5,000
     workstations.  OIG noted improvements in help desk operations and configuration man-
     agement.  However, OIG identified that management attention is needed for web sites,
     patch management, and ISSO functions.  

     CA manages three major web sites:  the bureau site, domestic operations site, and the
     travel site.  The travel site is the most visited among all the Department sites, receiving
     over 171 million page views annually.  Currently, CA has no standard operating proce-
     dure for managing and updating content on the web pages.  No one has overall respon-
     sibility for managing and maintaining the content of the web sites.  Each office has a
     different process for keeping the web content up-to-date, and each web site has a differ-
     ent appearance and ambiance.  Specific guidance on monitoring content would ensure
     that information is current, the security level of the information is identified, and access
     controls are established appropriately.  



     Bureau of International Narcotics and Law Enforcement
     Affairs (ISP-I-05-14)

     The fragmentation of IT management, without central IT leadership and oversight,
     reduces IT effectiveness.  INL recognizes this and has requested a new position, chief of
     the Information Systems Division, to manage and oversee IT programs in Washington
     and Florida.
			
 54                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   54	
            During the inspection, INL used the Department’s analytic tool to verify the configura-
            tion settings of its servers and workstation.  Compliance with audit policies ranged from
            six percent to 83 percent.  Also, the Department’s software security patch management
            status report does not accurately reflect the status of INL workstations and servers.




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   55 55	
			
 56       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   56	
                                                INVESTIGATIONS




                                                PRESS RELEASE

               Mozambican Arrested for Embezzlement of Government
               Funds

               WASHINGTON –The Inspectors General for the U.S. Agency for Interna-
               tional Development (USAID), and the Department announced the arrest
               of a Mozambique national in Charleston, SC, following an indictment on
               charges of theft of government funds totaling over $200,000. OIG special
               agents for USAID and the Department arrested the individual upon his ar-
               rival in Charleston from Mozambique on September 16, 2005.  The acting
               USAID Inspector General stated that “This indictment and arrest serves
               as notice by this office that fraud will not be tolerated and that we will ag-
               gressively pursue and seek to prosecute those who attempt to commit acts
               of fraud, regardless of where they may be located or what nationality they
               might be.” It should be noted that criminal charges are not evidence of guilt;
               a defendant is presumed to be innocent until proven guilty.

               The arrest resulted from a joint investigation by the two OIGs. USAID had
               begun an investigation of the individual for embezzlement of funds during
               his tenure as cashier at USAID Mozambique Mission. This individual left
               USAID employment in 2003 to become the cashier at Embassy Maputo.
               USAID notified the Department of its findings leading to this individual’s
               being placed on administrative leave and triggering an internal audit and in-
               vestigation by the Department’s OIG. The indictment charges two counts of
               theft under Title 18, Section 641, of the U. S. Criminal Code.  The indictment
               alleges that on or about July 2, 2003, through October 10, 2003, and then
               again on or about October 13, 2003, through June 6, 2005, this individual
               engaged in a sophisticated fraud scheme within the cashiering operations
               of both U.S. government locations, which resulted in the theft of more than
               $200,000 from the U.S. government.

               The Department’s Inspector General stated: “This type of collaborative in-
               vestigative and enforcement effort helps to ensure that U.S. taxpayer dol-
               lars are safeguarded, and not exploited for personal gain.”



Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   57 57	
     MISCONDUCT
     Conflict of Interest

     OIG conducted an investigation into allegations that a Foreign Service officer stationed
     overseas accepted gifts from a company having business contracts with the Depart-
     ment.  The investigation determined that the officer accepted two free hotel stays while
     on personal travel.  The hotel that offered the free stays was part of the same chain that
     provided leased office space to the mission where the officer was assigned.  OIG referred
     the matter to the Bureau of Human Resources (HR) for adjudication.  On 	
     April 20, 2005, HR issued a letter of admonition to the employee.

     Privacy Act Violation

     OIG conducted an investigation into allegations that a senior Department manager
     violated the Privacy Act by releasing the name, address, and telephone number of em-
     ployees assigned under him to a real estate company in North Carolina.  The real estate
     company then used the information to send solicitation packages to the employees.  The
     investigation determined that the senior manager provided an internal telephone book to
     the company.  OIG referred the matter to HR for adjudication.  On April 22, 2005, HR
     issued a letter of reprimand to the employee.

     Misuse of Diplomatic Pouch

     OIG conducted an investigation into misuse of an unclassified diplomatic pouch by a
     Foreign Service officer to ship approximately 70 boxes of household effects to her new
     post.  The investigation confirmed the allegations and additionally determined that the
     officer owed $6,625 in overweight and storage fees for her regular household effects ship-
     ment.  OIG referred the matter to HR for adjudication.  On April 7, 2005, HR 	
     issued a three-day suspension for the officer.

     Failure To Pay Financial Obligations/Social Security Taxes

     OIG conducted an investigation of a Foreign Service officer for failure to pay $3,130 in
     social security taxes for a foreign national servant for whom he helped obtain an em-
     ployment visa.  The officer also allowed the servant to work for another employer in the
     United States, which caused the servant to be in violation of her work visa and thereby
     subject to deportation.  OIG referred the matter to HR for adjudication.  On 	
     June 22, 2005, HR issued a three-day suspension for the employee.

     Absent Without Leave

     OIG conducted an investigation into allegations that a Department employee was
     sleeping on the job during work hours.  The investigation determined the employee was
     working full-time as a contract employee for the Department during the day and full-


			
 58                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   58	
              time as a regular Department employee at night.  The investigation determined the
              employee was absent without leave from his regular Department duties for a total of
              502 hours from January 2002 until May 2003.  The cost of his salary for those hours
              was $15,362.  OIG referred the matter to HR for adjudication.  On July 13, 2005, HR
              proposed that the employee be terminated from his Department employment.



              PROTECTION OF PEOPLE AND FACILITIES
              OIG’s investigation of alleged product substitution of security doors installed in embas-
              sies globally disclosed that Department certification standards for forced entry, ballistic-
              resistant structural systems were posted on an approved vendor’s web site on the Internet.  
              Thus, anyone seeking to harm U.S. entities domestic or abroad had access to critical
              information useful in planning an attack.  Result:  On the basis of OIG’s recommenda-
              tion, the Department asked the company to remove this critical-sensitive information
              from its web site.



              CONTRACTING IRREGULARITIES
              OIG conducted several investigations involving financial matters affecting different areas
              of the Department.  For example, a private company under contract to the Bureau of
              Overseas Buildings Operations (OBO) double-billed the Department for work provided.  
              The investigation confirmed that the company double-billed for equipment costs on ap-
              proximately 96 task orders.  The double-billing occurred when the company developed
              a new inventory tracking form after OBO changed the contract terms from a time and
              materials to a firm, fixed-price procurement.  Result:  OIG’s investigation garnered the
              full cooperation of the company.  The company took appropriate administrative 	
              actions to reduce its equipment prices by $1.3 million and refunded $44,000 to OBO.  	
              Additionally, per OIG’s recommendations, OBO took steps to ensure that proper inter-
              nal management controls were in place to prevent similar problems in the future.
              	

              OIG conducted an investigation into allegations that a program manager for a local
              security guard contractor at a U.S. embassy overseas was billing the embassy for local
              guard contract hours not performed.  Result:  The contractor fired the program manager
              and performed an internal audit of the contract.  The contractor subsequently issued the
              embassy a credit in the amount of $137,564 for overcharges to the contract.



              IMPERSONATION OF AN AMBASSADOR
              OIG conducted an investigation concerning allegations that a resident of the U.S. Virgin
              Islands was impersonating U.S. government officials; illegally obtaining services includ-

Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      59 59	
     ing motorcades and police protection; and attempting to obtain diplomatic passports
     and other official U.S. government credentials unlawfully.  On September 6, 2005, OIG
     and agents from DS and the Department of Homeland Security OIG arrested the sub-
     ject for impersonating a U.S. ambassador and using fraudulent Department credentials.  
     The subject was charged in federal court with one count of impersonating a U.S. govern-
     ment official and one count of misuse of an official passport or permit.  Prosecution is
     pending.



     FALSE CLAIMS
     OIG conducted an investigation into allegations that a Foreign Service officer was com-
     mitting significant time and attendance fraud during a detail to two different congres-
     sional offices.  The investigation determined the officer claimed zero hours of annual
     and sick leave during her two-year detail from 2001 to 2003.  Airline and hotel records
     obtained by OIG revealed that she took numerous personal trips away from work during
     this time period and used her diplomatic passport on at least one of the personal trips.  
     OIG referred the matter to HR for adjudication.  On June 30, 2005, HR proposed a 90-
     day suspension for the officer.
     	                                                           	                              	
     	                                                                                          	
     OIG conducted an investigation into allegations that a Foreign Service officer submitted
     a false claim for Separate Maintenance Allowance (SMA) payments, claiming that her
     spouse was residing in the United States while she was stationed overseas.  The investi-
     gation determined her spouse was in fact employed by an international organization in
     another country.  As a result of the false claim, the officer received $7,284 in SMA pay-
     ments to which she was not entitled.  OIG referred the matter to HR for adjudication.  
     On May 27, 2005, HR proposed that the employee be terminated from her employment
     with the Department.
     	

     OIG conducted an investigation into allegations that a Foreign Service officer submit-
     ted false statements to the Department to receive SMA payments for ineligible family
     members.  The officer was also alleged to have made false statements on a nonimmigrant
     visa application for a family member.  The investigation determined that the officer sub-
     mitted a false Foreign Service Residence and Dependency Report claiming the ineligible
     family members as dependents and received $7,847 in SMA payments to which she was
     not entitled.  OIG referred the matter to HR for adjudication.  On April 14, 2005, HR
     proposed that the employee be terminated from her employment with the Department.

     FOLLOW-UP ACTIONS

     Labor Visa Fraud

     A joint investigation with the Department of Labor OIG, the Internal Revenue Service,
     the Federal Bureau of Investigation, and Immigration and Customs Enforcement (ICE)

			
 60                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   60	
              has resulted in guilty pleas from a total of seven individuals in U.S. District Court, East-
              ern District of Virginia, on charges of conspiracy to commit immigration fraud through
              an employment-based visa scheme, conspiracy to encourage an alien to enter the United
              States unlawfully, money laundering, and misprision of a felony.  One defendant remains
              a fugitive in China.

              Government records showed the firm filed at least 1,400 fraudulent applications as part
              of the scheme. Illegal immigrants were charged as much as $120,000 each to obtain
              visas under false pretenses.  The company conducted much of its business in cash, and
              evidence was found documenting the firm structured its cash deposits at its bank in
              amounts less than $10,000 to avoid triggering a currency transaction report by the bank.  
              The firm also failed to file federal income-tax returns and failed to report any income
              during the four-year conspiracy, although the firm had revenues of $3.2 million.

              Two defendants were sentenced for their role in the case.  On May 20, 2005, one
              was sentenced to two years’ imprisonment and two years’ supervised release and fined
              $1,500.  On August 12, 2005, the other was sentenced to two years’ imprisonment and
              two years’ probation and fined $750.

              On July 22, 2005, one of the remaining defendants was required to pay a monetary
              judgment of $500,000, which was determined to be the amount of his illegal proceeds
              from the scheme.  On August 29, 2005, two of the other defendants were required to
              pay monetary judgments determined to be the amount of their illegal proceeds from the
              scheme.  One was required to pay $45,000 and the other $40,000.  These defendants
              have not yet been sentenced. The remaining codefendants are to be sentenced in 	
              December 2005. (See OIG, Semiannual Report, October 1, 2004, to March 31, 2005, 	
              p. 52.)

              False Claim

              OIG conducted an investigation into allegations that a former Department employee
              was paid for five months of sick leave at the end of her tenure with the Department
              despite the fact that she had begun employment at a new job.  The investigation de-
              termined that the former employee was paid $28,161 during the period that she was
              on sick leave.  When interviewed by OIG, the employee confirmed the allegations, but
              stated she sought approval from Department management and was never told she could
              not take sick leave and work at another job at the same time.  The former employee was
              willing to repay the money to the government.  OIG referred the matter to the Bureau
              of Resource Management (RM) for collection action.  On May 4, 2005, RM notified
              OIG a collection action for the entire amount had been initiated. (See OIG, Semiannual
              Report, October 1, 2004, to March 31, 2005, p. 51.)




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      61 61	
                                                    A BORDER SECURITY INITIA-
                                                    TIVE: PASSPORT SENTINEL

                                                    OIG established the proactive Passport Sentinel
                                                    identity theft initiative and formed the Passport
                                                    Sentinel Alliance to ensure a comprehensive law
                                                    enforcement approach to identifying passport
                                                    fraud and prosecuting violators.  The initiative
                                                    helps to determine whether individuals have
                                                    fraudulently obtained U.S. passports using false
                                                    identities obtained through identifying theft.
                                                    Passport Sentinel addresses systemic aspects
                                                    relating to the subversion of the nation’s passport
                                                    system by individuals, terrorists, and domestic or
                                                    transnational criminal organizations.  

          This initiative addresses key aspects of the 2004 Intelligence Reform bill, which requires
          issuance standards for federal recognition and the establishment of a visa and passport
          security program in the Department. It addresses the management challenges for coun-
          terterrorism and border security, information security, and protection of people and
          facilities and is in line with OIG’s role to identify vulnerabilities and inherent weaknesses
          in Department programs.

          Passport Sentinel works to ensure that the Department stays in the forefront of design-
          ing interagency data-mining links with other agencies, both federal and state, involved
          in border security and terrorism.  The Passport Sentinel Alliance consists of the Depart-
          ment’s OIG, CA, DS, and the Department of Homeland Security’s OIG and ICE, as
          well as several other federal and state law enforcement and licensing agencies.

          Result:  During the reporting period, OIG made three arrests under the Passport Sen-
          tinel initiative, of whom two were illegal aliens. Another three OIG cases have been
          referred for prosecution consideration. OIG referred other investigative leads to both DS
          and ICE. DS made two arrests independently from the referrals; one of a man, a Cana-
          dian national wanted since 1977 for child molestation, and one of a female illegal alien.
          A common factor in the arrests made to date has been that the individuals had all been
          living under the assumed identities for a significant number of years.


          PUBLIC DIPLOMACY INITIATIVE

          The J-VISA Program

          The Department’s Bureau of Educational and Cultural Affairs (ECA) administers the
          Exchange Visitors Designation (J-Visa) Program. The purpose of this program is to
          further the foreign policy interests of the United States and people of other countries by

			
    62                   Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	        62	
              means of mutual educational and cultural exchanges.  The Department has designated
              approximately 1,500 private sector sponsors in the United State to facilitate the entry
              and provide programs for more than 150,000 foreign nationals annually on a fee basis.  
              Several of these sponsors hold designations in more than one category of exchange.

              OIG has investigated the J-Visa Program for misuse and exploitation. The Department’s
              Management Control Steering Committee established a Reportable Condition dur-
              ing the previous reporting period on the Oversight of Exchange Visitor Designation
              Program.  During the current reporting period the Office of Inspector General worked
              with ECA and other bureaus to develop a plan for ECA to provide effective oversight
              of the sponsors and their programs.  In addition, the Office of Inspector General took
              the initiative to create a law enforcement subcommittee to develop practical and effec-
              tive methods for the Department to vet sponsors to ensure they are not associated with
              criminal or terrorist elements.  When implemented this will strengthen the Department’s
              ability to ensure the integrity of the J-Visa program and add another link to the protec-
              tion of the U.S. borders.




              Types of Cases	




              Hotline
              	
              Held	for	action	within	OIG					............................................................... 					19
              Referral	to	other	offices	for	action						.....................................................				14
              No action necessary     ............................................................................     47
              Total	allegations	received						...................................................................				220
              .

Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005                          		   63 63	
			
 64       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   64	
                     APPENDIX 1: INVESTIGATIVE ACTIVITIES




              Criminal Investigative Activities

              Indictments/Informations	                                                          	     3
              Convictions	                                                                       	     7
              Sentencings
              -  Imprisonment  	                                                                 48 Months
              -  Probation  	                                                                    48 Months

              Referrals for Prosecution	                                                         	    19
              Referrals for Prosecution Declined	                                                	     8
              Criminal Judgments/Restitutions	                                                   $587,250.00

              Civil Investigative Activities

              Civil Referrals	                                                                   	      1
              Civil Declinations	                                                                	      2
              Civil Recoveries	                                                                  	    $0

              Administrative Investigative Activities

              Administrative Referrals	                                                          	     4
              Personnel Actions
              - Removals	                                                                        	     3
              - Suspensions	                                                                     	     3
              - Reprimands/Admonishments	                                                        	     2
              - Reimbursements	                                                                  	     3
              Administrative Recoveries  	                                                       $1,590,324.57

              Total Investigative Recoveries (Judicial and Administrative)            	          $2,177,574.57
              	
              Investigative Workload

              Cases Pending (3/31/05)	                                                           	    60
              New Cases Opened	                                                                  	    20
              Cases Closed	                                                                      	    16
              Cases Pending (9/30/05)	                                                           	    64
              Preliminary Inquiries Pending (3/31/05)	                                           	    78
              Preliminary Inquiries Opened	                                                      	    24
              Preliminary Inquiries Closed	                                                      	    66
              Preliminary Inquiries Converted to Cases 	                                         	      8
              Preliminary Inquiries Pending (9/30/05)	                                           	    28
Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005          		   65 65	
			
 66       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   66	
                                 APPENDIX 2: REPORTS ISSUED




                 Audits
                 	
                 AUD/CG-05-41  	          	 uality Control Review of Grant Thornton LLP	
                                          Q                                                                                   09/2005
                 AUD/CG-05-35  	          	Agreed-Upon Procedures Applied to the Claim Sub-
                 	                         	mitted by Kullman Industries, Inc.	                                               08/2005
                 AUD/CG-05-34  	            	Agreed-Upon Procedures Applied to the American
                 	                           	Institute in Taiwan Procurement Practices and RY 2003
                 	                            	Indirect Cost Rate	                                                            09/2005	        	
                 AUD/CG-05-31  	               	Agreed- Upon Procedures Review of Indirect Rates
                 	                              	Proposed by Mainstreet Technologies, Inc.	                                   06/2005
                 AUD/CG-05-30  	                 	Agreed-Upon Procedures Review of Indirect Rates Pro-
                 	                                	posed by national Strategy Information Center, Inc.	 06/2005
                 AUD/CG-05-28 	                    	Review of Lutheran Immigration and Refugee
                 	                                  	Service’s Reception and Placement Program	                               06/2005
                 AUD/CG-05-26 	                      	Review of Selected Grants Awarded to Institute for
                 	                                    	the Study and Development of Legal Systems	                            09/2005	
                 AUD/CG-05-25  	                       	Application of agreed-Upon Procedures for Export
                 	                                      	Control and Related Border Security Assistance Program
                 	                                       	Kazakhstan, Kyrgyzstan, & Uzbekistan	                               06/2005
                 AUD/FM-05-36  	                          	Audit of the International Boundary and Water
                 	                                         	Commission’s 2004 and 2003 Financial Statements	 08/2005
                 AUD/GM-05-33  	                            	Assessment of Value-Added Tax Exemption and
                 	                                           	Reimbursement Effort	                                           08/2005
                     AUD/FM-05-37	                            	Management Letter Related to the Audit of the
                 	                                             	International Boundary & Water Commission’s
                 	                                              	2004 & 2003 Financial Statements        	                    08/2005
                 	AUD/FM-05-38	                                  	Audit of the International Cooperative Administrative
                  	                                               	Support Services’ FY 2003 & FY 2002 Financial
                  	                                                	Statements	          	                                    08/2005
                  	AUD/FM-05-39     	                               	Management Letter Related to the Audit of the
                  	                                                  	International Cooperative Administrative Support
                  	                                                    	Services’ FY 2003 & FY 2002 Financial Statements      08/2005
                   	AUD/FM-05-40	                                        	Concerns About Changes in Cyber Security Roles &
                    	                                                     	Responsibilities 	                                 09/2005
                    AUD/FM-05-43	                                          	Department’s Oversight of the Foreign Affairs	    	                   		
                  	                                                   	Recreation	Association	                                09/2005
                  	AUD/FM-05-44	                                        	Application of Agreed-Upon Procedures for Retirement,
                                          Health	Benefits	&	Life	insurance                                                    09/200


Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005                                       		            67 67	
     	


     	 UD/PP-05-42	
     A                  	Review of Department’s Compliance with the State
     	 	                  First Policy for Acquisitions         	                  09/2005
     AUD/PPA-05-15	     	Review of Security Upgrade Construction Project in
     	 	                Havana, Cuba	 	                                            	06/2005
     	AUD/PR-05-29	     Export Licensing of Chemical and Biological Commodities			              			 	 	 	 	 	
      	 	               			                                                     				04/2005
      AUD/IP-05-32	     	Survey of the Office of the U.S. Global AIDS Coordinator				      	     		 	 	 	 	 	
     	 	                		                                                     				09/2005
     Inspections

     ISP-C-05-22	       Compliance	Follow-up	Review	of	Embassy	Kathmandu,		                	
     	                  Nepal	 	            	                                              	07/2005
     	ISP-C-05-41	      Compliance Follow-up Review of Bureau of
      	                 	Democracy, Human Rights, and Labor	                               09/2005
      ISP-CA-05-68	     	Bureau of Consular Affairs, Office of Overseas
      	       	         	Citizens Services, Office of Children’s Issues	                   09/2005
      ISP-CA-05-06	     Inspection of the Bureau of Consular Affairs,Office 	              	       		 	 			 	 	 	 	 	
      	                 	of the Executive Director	                                        09/2005
      ISP-CA-05-62	     Inspection	of	the	Bureau	of	Consular	Affairs,	Office	
      	                 of Policy Review & Interagency Liaison	                            09/2005
      ISP-I-05-13A	     Inspection of Embassy Tel Aviv, Israel	                            08/2005
      ISP-I-05-14	      	Inspection of the Bureau of International Narcotics
      	                 & Law Enforcement Affairs (INL)               	                     07/2005
      ISP-I-05-15A	     	Inspection of Consulate General Jerusalem	                         07/2005
      ISP-I-05-16A	     Inspection of Embassy Beirut, Lebanon	                              07/2005
      ISP-I-05-17A	     Inspection of Embassy Damascus, Syria    	                         08/2005
      ISP-I-05-18A	     Inspection of Embassy Singapore    	                               08/2005
      ISP-I-05-19A	     Inspection of Embassy Kuala Lumpur, Malaysia	                      07/2005
      ISP-I-05-20A	     Inspection of Embassy Bandar Seri Begawan, Brunei	                 07/2005
      ISP-I-05-21A	     Inspection of Embassy New Delhi, India	                            08/2005
      ISP-I-05-24A	     Inspection of the American Institute in Taiwan	                    07/2005
      ISP-I-05-28A	     Inspection of Embassy Hanoi & Consulate General	                   	        	 			 	 	
      	                 Ho Chi Minh City, Vietnam	                                         09/2005
      ISP-I-05-29A	     Inspection of Embassy Jakarta & Consulate
      	                 General Surabaya	                                                  09/2005
      ISP-I-05-30	      Inspection of Embassy Dili, East Timor	                            09/2005
      ISP-I-05-32A	     Inspection of Embassy Santo Domingo,
      	                 Dominican Republic	                                                09/2005
     	ISP-I-05-35A	     Inspection of Embassy Islamabad, Consulate
     		                 General Karachi, & Consulates Lahore &	                            	       		 			 	 	 	 	
                                                                                                                  	
       	                Peshawar, Pakistan	                                                09/2005
      ISP-I-05-36A	     Inspection	of	Embassy	Lilongwe,	Malawi																										   09/2005
      ISP-I-05-37A	     Inspection of Embassy Harare, Zimbabwe                        	    09/2005
      ISP-I-05-38A	     Inspection of Embassy Gaborone, Botswana    	                      09/2005       
      ISP-I-05-39A	     Inspection of Embassy Lusaka, Zambia    	                          09/2005
      ISP-I-05-40	      Inspection of Bureau of Oceans & International
                        Environmental	&	Scientific	Affairs                                 09/200
			
 68                   Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   68	
              	

              ISP-I-05-42	        Inspection of the Science & Technology Adviser to	          	       		
              	                   the Secretary  	                                              09/2005
              ISP-I-05-59	        Inspection of Consulate General Hong Kong   	                 08/2005
              ISP-IQO-05-60	      Review of Security Programs at U.S. Embassy Baghdad  	 08/2005
              ISP-IQO-05-61	      Review of Staffing Process for Embassy Baghdad’s 	          	       		 			 	 	 	 	 	
              	                   	New Embassy Compound  	                                      07/2005
              ISP-IQO-05-72	      Review of Iraqi Police Training (joint State/DOD report)     07/2005		 			 	 	 	 	
                                  Report published and issued by DOD, #IE-2005-002.  

              Security Reviews

              ISP-S-05-13A	       Security Management Review of Embassy Tel Aviv, Israel  	        08/2005
              ISP-S-05-15A	       Security Management Review of Consulate 	                       	                 		
              	                   General Jerusalem  	                                             07/2005
              ISP-S-05-16A	       Security Management Inspection of 	                               	               		
              	                   Embassy Beirut, Lebanon  	                                        07/2005
              ISP-S-05-17A	       Security Management Inspection of 	                               	               		
              	                   Embassy Damascus, Syria   	                                       08/2005
              ISP-S-05-18A	       Security Management Review of Embassy
              	                   Singapore, Singapore   	                                         08/2005
              ISP-S-05-19A	       Security Management Review of Embassy 	                          	                		
              	                   Kuala Lumpur, Malaysia   	                                       07/2005
              ISP-S-05-20A	       Security Management Review of Embassy
              	                   Bandar Seri Begawan, Brunei   	                                  07/2005
              ISP-S-05-21A	       Security Management Inspection of
              	                   Embassy New Delhi, India  	                                      08/2005
              ISP-S-05-24A	       Security Management Inspection of 	                              	                		
              	                   American Institute in Taiwan   	                                 07/2005
                ISP-S-05-28A	     Security Management Review of Embassy
              	                   Hanoi & Consulate General Ho Chi Minh City,
              	                   Vietnam   	                                                      09/2005
              ISP-S-05-29A	       Security Management Review of Embassy Jakarta,
              	                   Indonesia, & Constituent Posts	                                  09/2005
              ISP-S-05-32A	       Security Management Inspection of Embassy
              	                   Santo Domingo, Dominican Republic	                                09/2005
              ISP-S-05-35A	       Security Management Inspection of Embassy	                      	                		
              	                   Islamabad, Pakistan, & Constituent Posts        	                09/2005
              ISP-S-05-36A	       Security Management Inspection of Embassy
              	                   Lilongwe, Malawi	                                                09/2005
              ISP-S-05-37A	       Security Management Inspection of Embassy
              	                   Harare, Zimbabwe	                                                09/2005
              ISP-S-05-38A	       Security Management Inspection of
              	                   Embassy Gaborone, Botswana	                                      09/2005
              ISP-S-05-39A	       Security Management of Embassy Lusaka, Zambia	                   09/2005
              ISP-S-05-71	        Review of New Embassy Construction – 	                          	                 		
              	                   Embassy Beijing	                                                 08/2005


Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005              		       69 69	
          SIO-A-0-02								
                          Review	of	the	Creekbed	Renovation	Project 														 04/200
          SIO-I-05-14	       Special Review of the Rosslyn Ridge Residential
          	                  Housing Compound, Embassy Nairobi, Kenya	                       07/2005

          Information Technology Reviews

          IT-I-05-05	        Summary Evaluation of the Regional Information
          	                  Management Centers	                                             09/2005
          IT-I-05-07	        Review of the Information Security Program for
          	                  Sensitive Compartmented Information Systems
          	                  at the Department of State (FISMA)	                             08/2005
          IT-I-05-08	        Evaluation of Department of State’s Public
          	                  Diplomacy Network Conversion to OpenNet Plus	                   09/2005
          IT-I-05-09	        Review of the Information Security Program at the
          	                  Department of State (FISMA)	                                    09/2005
          IT-IQO-05-04	      Survey of Iraq IT Waivers	                                      06/2005




			
 70                      Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   70	
                 APPENDIX 3: SAVINGS AND MORE EFFECTIVE
                            USE OF RESOURCES




                                                            Table I

                                      Inspector General Issued Audit Reports
                                              With Questioned Costs


                                                       Number             (Dollars in Thousands)
                                                       of Reports Questioned Costs Unsupported Costs
                                                           	           	                   
       A.	    For which no management
       	      decision has been made by the
       	      commencement of the reporting
       	      period	                                 18	                 12,779	               21,491	
       	      	
       B.	    Which were issued during the
       	      reporting period	                        4	                   6,340	                  938	
       	
       C.	    For which a management decision
       	      was made during the reporting period -
       	      based on formal administrative or
       	      judicial appeal
       	      (i) dollar value or disallowed
              (ii) dollar value of costs not allowed
       	      	                                      	                    	                     	          	    	
       D.	    For which no management decision
       	      has been made by the end of
       	      reporting period	                      22	                  27,831	               12,807		        		
       	
       	      Reports for which no
       	      management decision was made 	          	
       	      within 6 months of issuance	            18	                 12,491	               12,779		        		




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005             		    71 71	
                                                                               Table 2

                                     Inspector General Issued Audit Reports with
                                   Recommendations That Funds Be Put To Better Use


                                                                           	             Numbers       	   	 Dollar Value
              	                                                                          of Reports	        	 (in thousands)

              A. For which no management decision has
                   been made by the commencement of the	                                     4	            	 	      22,423	
                   reporting period
              B. Which were issued during the reporting
                   period.       	                                                           0	            	 	          0

                   Subtotals (A+B)	                                                          4	            	 	      22,423

              C. For which a management decision was
                   made during the reporting period.	                                        0	            	 	         0	

                   (i) dollar value of recommendations that
                   were agreed to by management
                   –based on proposed management action	                                     	             	
                   –based on proposed legislative action
              	                                                                              	             	 	      	
                   (ii) dollar value of recommendations
                   that were not agreed to by management
              	                                                                          	                 	
              D. For which no management decision has been
                   made by the end of the reporting period.        	                        4	             	 	      22,423

                  Reports for which no management decision	
                  was made within 6 months of issuance   	                                  4	             	    	   22,423
              	

              	




			
 72                                    Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	         72	
BROADCASTING BOARD OF GOVERNORS
			
 76       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   76	
                                           EXECUTIVE SUMMARY



                  The auditors, inspectors, investigators, and other professionals in the Office of 	
                  Inspector General (OIG) promote effective management, accountability, and positive
                  change in the Department of State (Department), the Broadcasting Board of Gover-
                  nors (BBG), and the foreign affairs community.  They provide leadership to:

                  •	    promote integrity, efficiency, effectiveness, and economy;
                  •	    prevent and detect waste, fraud, abuse, and mismanagement;
                  •	    identify vulnerabilities and recommend constructive solutions;
                  •	    offer expert assistance to improve Department and BBG operations;
                  •	    communicate timely, useful information that facilitates decision-	           	        	
                   	    making and achieves measurable gains; and
                  •	    keep the Department, BBG, and the Congress fully and currently 	             	        	
                   	    informed.
                  	
                  OIG’s accomplishments during this period include the following:

                  •	     OIG Finds That Broadcasting Contributes to Public Diplomacy in War on 		
                  	      Terror.  Inspectors found that the BBG, through the efforts of the Inter-	   	
                  	      national Broadcasting Bureau (IBB) and the Voice of America (VOA), is 	      	
                  	      making contributions to the global war on terror and U.S. interests in 	 	   	
                  	      Pakistan in a difficult and challenging environment.  VOA has “gone local” 	 	
                  	      in content and presence and has applied “formatics” principles of modern 	   	
                  	      radio, with a resulting growth in audience and credibility.

                  •	     OIG Reviews IBB Transmitting Stations.  OIG’s inspection of the IBB’s 	              	
                   	     Greenville, NC, Transmitting Station revealed security and safety issues 	           	
                   	     with its mail handling.  IBB acted quickly to implement OIG recommen-	               	
                   	     dations to ensure the station continues to function should it receive 	 	            	
                   	     hazardous substances through the mail.  OIG recommended, in the
                  		     interest of wise use of the taxpayers’ money, that IBB review its cur-	 	            	
                   	     rent twin operations in Greenville and decide whether to close one site.  	          	
                   	     OIG noted that the transmitting station faced preventive and scheduled 	             	
                   	     maintenance challenges that IBB has now taken steps to address.    

                  •	     OIG Identifies Needed Improvements in Information Security.  An evalua-	 	
                  	      tion of BBG’s Information Security Program found that, although BBG 	         	
                  	      had taken several actions to improve the effectiveness of its information 	   	
                  	      security program, several areas require senior management attention.  BBG’s 	 	
                  	      organization allows system managers too much discretion in implementing 	 	
                  	      security requirements and has not completed the development of agency-wide 		
                  	      enterprise architecture.  

Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005       		       77 77	
          •	   OIG Investigates Unemployment Fraud of IBB Employee.  Based 	
          	    on a referral from BBG management, OIG investigated an IBB 	
          	    employee and determined that the employee received a total of 14 	
          	    unemployment checks in the amount of $6,994 while employed by 	
          	    IBB.   The employee pleaded guilty, and sentencing is tentatively 	
          	    scheduled for early October 2005.




			
 78                  Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   78	
                                                     INSPECTIONS




              Security Issues at the International Broadcasting Bureau’s 	
              Greenville, North Carolina, Transmitting Station 	
              (ISP-IB-05-70)

              Greenville Transmitting Station comprises two locations, site A and site B.  Both
              sites are near Greenville, NC.  This inspection assessed security at the Greenville Trans-
              mitting Station and the station manager’s oversight of the transmitting station’s security
              program.  In assessing security at the station, OIG reviewed overall security management,
              perimeter security, surveillance system capabilities, the guard contract, and mail handling.

              OIG made one recommendation, which addressed mail handling.  After this inspection
              ended, the International Broadcasting Bureau (IBB) reviewed and improved its mail-han-
              dling procedures.  Then, station management trained the mail handlers in those proce-
              dures in a way that ensures the safety and viability of the facility.


              The International Broadcasting Bureau’s Greenville, North Carolina,
              Transmitting Station (ISP-IB-05-69)

              OIG assessed the operations of the IBB Greenville Transmitting Station, including its pro-
              gram management, program performance, and management controls.  The current station
              manager deserves praise for his decisions, initiatives, and style of management.  These
              have moved the station forward and have positively affected morale, despite the January
              2005 announcement of planned budget and staff reductions.

              Additional work remains to be done to maintain and upgrade station facilities.  The
              reductions being made by the Broadcasting Board of Governors (BBG) could mothball
              or close site A or site B.  To avoid wasting taxpayers’ money upgrading a facility that
              may be put out of service, IBB needs to decide soon about the future of the two sites.  
              Sites A and B face preventive and scheduled maintenance challenges, but site A has had
              much more wear and tear.  Furthermore, much of the maintenance at both sites is cor-
              rective, not preventive.


              Inspection of Broadcasting Board of Governors’ Operations in and
              Broadcasting to Pakistan (ISP-IB-05-67)

              In the difficult and challenging setting posed by the environment in Pakistan, BBG,
              through the efforts of IBB and the Voice of America (VOA), is making a contribution to

Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      79 79	
     U.S. interests in Pakistan and the region and in doing so, is making a positive contribu-
     tion to the global war on terrorism.  VOA launched its Urdu initiative on May 10, 2004,
     with the introduction of Radio Aap ki Dunyaa, a new brand meaning “your world” in
     Urdu.  VOA has applied the objectives in the BBG strategic plan of adopting the prin-
     ciples and practices of modern radio formats and going local in content and presence.  
     This has paid off with audience growth and growing credibility.

     Recognizing that Pakistan is on the frontline in the global war on terrorism and that
     VOA broadcasts are a potentially powerful tool of public diplomacy, Embassy Islamabad
     believes that VOA broadcasts to Pakistan also need to be in Pashto for Pashto-speaking
     Pakistanis.  Embassy Islamabad also believes that VOA needs more capacity to reach a
     larger audience in Pakistan.  BBG and VOA are proceeding with a significant technical
     upgrade.  In conjunction with that, IBB needs to establish a performance measurement
     objective for signal strength and audience in and around Karachi with a timetable for
     achieving those objectives.  Finally, the management controls at the VOA Islamabad
     News Bureau are good; however, the bureau does need to make changes in its contract
     for guard services.



     Inspection of Broadcasting Board of Governors’ Operations in
     India (ISP-IB-05-66)

     In New Delhi, BBG has a VOA news bureau, and IBB has a regional technical monitor-
     ing office (TMO).  These offices have separate functions and do not interact.  The New
     Delhi TMO is supervised from Washington, DC, and is one of six such offices world-
     wide.  The VOA news bureau is supervised by the VOA news bureau in Hong Kong
     and serves as VOA’s South Asia office, covering India, Sri Lanka, Nepal, Bangladesh, the
     Maldives, and Bhutan.  The bureau carries out its responsibilities well.

     OIG found that the VOA South Asia office does not have a full video editing setup.  
     This prevents the transmission of broadcast-quality video via the Internet to VOA Wash-
     ington and restricts the correspondent’s video journalism.  The TMO is a lean, cost-ef-
     fective operation that plays an active role in ensuring that U.S. nonmilitary radio broad-
     casting reaches southern Asia.  OIG found that it provides excellent monitoring services.


     The Review of the Voice of America’s Digital Upgrade Program 		
     (ISP-IB-05-65)

     OIG reviewed VOA’s digital upgrade effort.  Although the upgrade was not completed,
     OIG found that much had been accomplished since the start of the program.  VOA’s
     transformation to a digital organization supports BBG’s strategic objective to accelerate

     multimedia development through the convergence of traditional broadcasting and
     telecommunications technologies.  Because most of the major digital projects were com-
     pleted, OIG focused on the last remaining major initiative, the Integrated Digital
     Audio Production System (IDAPS).  Building on the earlier digital upgrade projects, the

			
 80                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   80	
              deployment of IDAPS brought commercial radio broadcasting technology standards to
              VOA.  OIG found that project planning and execution issues slowed the completion of
              IDAPS but that IDAPS was in place and the VOA language services were using the new
              digital audio system in program production and broadcasting.


              Inspection of the Broadcasting Board of Governors’ Operations in
              Hong Kong (ISP-IB-05-64)

              BBG operates three establishments in Hong Kong:  VOA and Radio Free Asia (RFA) news
              bureaus and an IBB technical monitoring office.  These offices have separate functions
              and do not interact.  The VOA Hong Kong news bureau supervises VOA English cor-
              respondents in all of Asia, including Jakarta, Seoul, Beijing, Islamabad, and New Delhi.  
              The bureau carries out its responsibilities well, and OIG found it is appropriate, produc-
              tive, and effective for VOA to maintain two senior editors in the bureau.  

              At the TMO, a locally employed staff member works with the one at the TMO in New
              Delhi assisting or leading in coordination of radio frequency use at the annual High
              Frequency Coordination Conference, held under the auspices of the Asia Pacific Broadcast
              Union.  OIG believes the use of TMO Foreign Service nationals at this conference is an
              acceptable intergovernmental process that helps to avoid anarchy on high-frequency radio
              bands regulated by the International Telecommunications Union.


              Inspection of the International Broadcasting Bureau’s Botswana
              Transmitting Station (ISP-IB-05-63)

              The Botswana Transmitting Station has been fighting a losing battle in its effort to recruit
              and retain competent technical and administrative staff.  A wage and benefit review is
              needed, and a possible exceptional pay rate may be in order.  More broadly, the station
              faces the government of Zimbabwe’s opposition to the special VOA programs the station
              transmits to Zimbabwe.  So far, Embassy Gaborone has successfully intervened to avoid
              possible changes in VOA programming or its transmission from the Botswana Transmit-
              ting Station, despite Zimbabwe’s pressure on the government of Botswana.


              Security Issues at the International Broadcasting Bureau’s Delano,
              California, Transmitting Station (IBO-S-05-06)

              This security inspection assessed security at the International Broadcasting Bureau’s (IBB)
              Transmitting Station in Delano, California.  It also examined the station
              manager’s oversight of the security program.  In 2004, there were two other inspections at
              the site.  In January 2004, the Safety Officer of IBB’s Office of Administration visited the
              facility to assess safety guidelines, in accordance with the BBG/IBB Manual of Admin-
              istration, Occupational Safety and Health Administration regulations, and Executive



Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		      81 81	
     Order 12196 guidelines.  The site visit’s report commended the station for the special at-
     tention it gives to safety and to the measures it takes to follow all guidelines.  OIG found
     that to be the case.  In addition, a member of the IBB Office of Security visited in Sep-
     tember 2004 to perform setup, acceptance, and training of the new security surveillance
     system that was being installed.




       




               	
			
 82                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   82	
                                    INFORMATION TECHNOLOGY




            Review of the Information Security Program at the Broadcasting
            Board of Governors (IT-I-05-10)

            OIG’s evaluation of BBG information security program concluded that BBG has made
            progress in the past year in meeting Federal Information Security Management Act
            (FISMA) requirements and is adjusting well to last year’s reorganization of information
            technology (IT) operations.  BBG added a 25th system to its major systems inventory
            and categorized all of the systems based on risk impact levels as required by Federal
            Information Processing Standards Publication 199.  BBG completed certification and ac-
            creditation for 28 percent (7 of 25) of its major systems.  Ninety-two percent (23 of 25)
            of the major systems have risk assessments, system security plans, and plans of action and
            milestones (POA&M).  Also, BBG developed agency-wide POA&Ms to address findings
            reported in previous OIG FISMA reviews and site inspections.  Lastly, BBG deployed a
            new IT security awareness training program for FY 2005 that has had positive reviews.

            Despite this progress, BBG’s organization allows system managers too much discretion
            in making risk determinations, creating and implementing plans to mitigate vulnerabili-
            ties, reporting on progress in meeting FISMA requirements, and implementing systems
            security configurations.  BBG’s method of tracking POA&Ms is cumbersome and
            has resulted in lapsed milestones.  Finally, BBG has not completed development of an
            agency-wide enterprise architecture, a recommendation from last year’s OIG report and
            a requirement since 2002.  BBG concurred with OIG’s recommendations and is moving
            forward to implement the recommendations.


            IBB Botswana Transmitting Station (ISP-IB-05-63)	

            OIG found several deficiencies in both information management and IT security, which
            should be dealt with to ensure a secure and reliable network.  The local systems manager
            should correct the security deficiencies and the majority of other identified weaknesses,
            and the BBG Chief Information Officer should address the overall policy and procedural
            concerns identified by OIG.  The issues pertaining to general BBG security policy and
            procedures will be the focus of OIG’s 2005 Federal Information Security Management
            Act evaluation.  

            OIG identified two human resource areas that should be addressed by the transmitting
            station management.  First, the position description for the systems LES is inaccurate
            and does not include key elements for securing the network.  The position description

Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   83 83	
    should include network security responsibilities as key elements.  Second, an internal
    control weakness exists because the systems administrator is the only person at the facil-
    ity with the knowledge and ability to perform network operations, maintenance, and
    security.  Also, no alternate or back-up administrator has been trained or designed if the
    primary systems administrator is unavailable to perform required duties.  


    IBB Botswana’s approach to IT security regarding its network needs improvement.  Some
    of the issues found included security configurations, security documentation, and patch
    management implementation.  OIG found that many of these problems stem from lack of
    IT security training, systems personnel inattention, and inadequate direction from BBG
    IT management.




			
 84                 Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   84	
                                                   INVESTIGATIONS




              OIG opened an investigation based upon a referral from BBG management that an IBB
              employee was receiving unemployment benefits from Department of Employment Ser-
              vices, Washington, DC.  The investigation determined that the employee received a total
              of 14 unemployment checks in the amount of $6,994 from August 2004 through Janu-
              ary 2005 while employed by IBB.  On July 19, 2005, OIG agents arrested the subject at
              her workplace.  On August 8, 2005, the subject pleaded guilty in D.C. Superior Court
              to one count of first degree fraud.  Sentencing is tentatively scheduled for early October
              2005.  (05-058)  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		    85 85	
			
 86       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   86	
                      APPENDIX 1: INVESTIGATIVE ACTIVITIES




              Workload	                                                            Number
              Cases pending 3/31/05	                                                   2
              New cases opened	                                                        2
              Cases closed	                                                            2
              Cases pending 9/30/05	                                                   2

              Preliminary inquiries pending 3/31/05	                                   0
              Preliminary inquiries opened	                                            0	
              Preliminary closed	                                                      0
              Preliminary inquiries converted to cases	                                0
              Preliminary inquiries pending 9/30/05	                                   0

              Total Judicial Actions	                                                  0
              Referrals for Prosecution 	                                              1
              Referrals for Prosecution Declined	                                      0
              Criminal Indictment/Arrest	                                              1
              Criminal Conviction	                                                     0	
              Criminal Sentencing	                                                     0
              	
              Time Probation	                                                          0 months
              Court Ordered Fine	                                                      $0
              Court Ordered Restitution	                                               $0

              Total Investigative Recoveries	                                          $0




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   87 87	
			
 88       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   88	
                                   APPENDIX 2: REPORTS ISSUED



               ISP-IB-05-63    The International Broadcasting Bureau’s
               	               Botswana Transmitting Station 	                                       8/2005
               ISP-IB-05-64  	 Inspection of the Broadcasting Board of Governors’
               	               Operations in Hong Kong 	                          8/2005
               ISP-IB-05-65  	 Review of the Voice of America’s Digital
               	
               	               Upgrade Program 	                                                     8/2005
               ISP-IB-05-66  	 Inspection of the Broadcasting Board of Governors’
               	               Operations in India 	                              8/2005
               ISP-IB-05-67  	 The Broadcasting Board of Governors’ Operations
               	
               	               in and Broadcasting to Pakistan     	           9/2005
               ISP-IB-05-69  	 Inspection of the International Broadcasting Bureau’s
               	               Greenville, North Carolina Transmitting Station 	 8/2005
               ISP-IB-05-70  	 Security Issues at the International Broadcasting
                             	 Bureau’s Greenville, North Carolina Transmitting
               	               Station            	                                                  8/2005
               IBO-S-05-06	 Security Issues at the International Broadcasting
               	            Bureau’s Delano, California, Transmitting Station	 5/2005
                   				
               		
               IT-I-05-10 	 Review of the Information Security Program at the
               	            Broadcasting Board of Governors     	              9/2005




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005       		   89 89	
			
 90       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   90	
                                APPENDIX 3: SAVINGS &
                           MORE EFFECTIVE USE OF RESOURCES




                                                        Table I
                                      Inspector General Issued Audit Reports
                                              With Questioned Costs
              	                                         	        	                          	 	 	
              	                                         Number of Reports	                  Questioned Costs         	
                                                                                   	        (Dollars in Thousands)
       A.  For which no management
       	   decision has been made by
       	   the commencement of the
       	   reporting period	                 0	 0
       		
       B.	 Which were issued during
       	   the reporting period	             0	 0			
       	   Subtotals (A+B)	                  0	 0
       		
       C.	 For which a management
       	   decision was made during
       	   the reporting period – based on
       	   formal administrative or judicial
       	   appeal
       	   (i) dollar value or disallowed 	  0	 0			
       	   (ii) dollar value of costs 	      0	 0		 	
       	   not disallowed					
       							
       D.	 For which no management
       	   decision has been made by the
       	   end of the reporting period	      0	 0			
       	   Reports for which no
       	   management decision was made
       	   within 6 months of issuance	      0	 0		 	




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005          		           91 91	
                                                           Table 2

                              Inspector General Issued Audit Reports With
                           Recommendations That Funds Be Put To Better Use

                                                                               	 Numbers of Reports Dollar Value
        		                                                                                          (in thousands)
                                                                  
    A. 	 For which no management decision has
       	 been made by the commencement of the
      	 reporting period.	                                                          0		                       0

    B. 	 Which were issued during the reporting
       	 period.    	                                                0		                                    0
       	 Subtotals (A+B)	                                            0		                                    0

    C. 	     For which a management decision was
       	     made during the reporting period.	                      0		                                    0	
       	     (i) dollar value of recommendations that
       	     were agreed to by management
       	     –based on proposed management action	                   0		                                    0
     	       –based on proposed legislative action	                  0		                                    0		
      	      (ii) dollar value of recommendations
     	        that were not agreed to by management	                 0		                                    0

    D. 	     For which no management decision has
      	      been made by the end of the reporting
      	      period.     	                                           0		                                    0
      	      Reports for which no management
        	    decision was made within 6 months
      	      of issuance.	                                           0		                                    0




 92
			                          Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	          92	
               CONGRESSIONAL ACTIVITIES AND OUTREACH




               Testimony

               On June 15, 2005, Inspector General Howard J. Krongard testified before the Sub-
               committee on Immigration, Border Security, and Claims of the House Judiciary
               Committee regarding OIG’s September 2003 report on the Diversity Visa Program
               (ISP-CA-03-52). His testimony updated previous OIG testimony on this subject by
               describing the current status of the Department’s actions in response to OIG’s recom-
               mendations and by highlighting major changes, such as electronic filing.

               On September 13, 2005, Deputy Inspector General John E. Lange testified before the
               Subcommittee on National Security, Emerging Threats, and International Relations of
               the House Government Reform Committee regarding OIG’s observations about the
               Department’s progress since 2002 in strengthening the visa process as an antiterror-
               ism tool.  The testimony highlighted substantial measures taken by the Department
               when compared to the findings and recommendations made in OIG’s December 2002
               report on Nonimmigrant Visa Issuance Policy and Procedures (ISP-I-03-26), including
               updated OIG work that was reported in July 2005: Nonimmigrant Visa Adjudication:
               the Visa Referral Process (ISP-CA-05-56) and Nonimmigrant Visa Adjudication: Stan-
               dards for Refusing Applications (ISP-CA-05-58).



               Congressional Mandates and Requests

               In response to legislative mandates and requests from Congress, OIG conducted the
               following reviews during this semiannual period:

               •		 As mandated by the Federal Information Security Management Act of 2002,
               	 	 OIG conducted independent assessments of the Department’s and BBG’s infor-	 	
               	      mation security systems by reviewing the overall effectiveness of each agency’s
                		 information security programs. (IT-I-05-09 and IT-I-05-10)  

               •		   As mandated by Section 1402 of the National Defense Authorization Act of 	    	
               		    2000, OIG conducted an audit of Export Licensing of Chemical and Biological 	 	
               		    Commodities. (AUD/PR–05–29)

               •	    As mandated by the Chief Financial Officers Act, as amended, OIG directed and 	
               	     monitored the following financial statement audits and other work conducted by 	
               	     an independent public accountant:


Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   93 93	
	

          	 •	 Audit of the International Boundary and Water Commission’s 2004 and 2003 		
          				Financial Statements (AUD/FM-05-36)

          		 •	 Management Letter Related to the Audit of the International Boundary and 			
          			 Water Commission’s 2004 and 2003 Financial Statements (AUD/FM-05-37)

          		 •	 Audit of the International Cooperative Administrative Support Services’ FY 			
          			 2003 and FY 2002 Financial Statements (AUD/FM-05-38)

          		 •	 Management Letter Related to the Audit of the International Cooperative          		
          				Administrative Support Services’ 2003 and 2002 Financial Statements
          			 (AUD/FM-05-39)

          		 •	 Concerns About Changes in Cyber Security Roles and Responsibilities
          			 (AUD/FM-05-40)

          		 •	 Application of Agreed-Upon Procedures for Retirement, Health Benefits, and 			
          			 Life Insurance (AUD/FM-05-44)

          The Inspector General and OIG staff met with congressional staff to review and
          comment on a variety of issues regarding OIG as well as the OIG work on the
          operations and programs of the Department and Broadcasting Board of Governors.  
          Committees included the Senate Appropriations Subcommittee on State, Foreign
          Operations, and Related Programs; the House Appropriations Subcommittee on
          Science, the Departments of State, Justice, and Commerce and Related Agencies;
          the Senate Select Committee on Intelligence; the House Government Reform Com-
          mittee; and the Congressional Border Caucus.

          Outreach and Media Assistance

          During this reporting period, OIG participated in two Foreign Service officer
          orientations and two Ambassadorial Seminars as well as other courses offered by
          the Foreign Service Institute (FSI) to inform Department employees about the role,
          mission, and services provided by OIG.  A senior consular inspector also addressed
          FSI’s Fraud Prevention Manager Class regarding OIG’s consular reviews.  

          As a part of OIG’s anticorruption outreach, the Inspector General met with Iraqi
          delegations to discuss the role of government oversight.  The Inspector General
          participated in OIG’s annual inspector’s training.  

          Members of the media inquired about several OIG reviews, including passport
          execution fees, Iraqi police training program, the U.S. International Boundary and
          Water Commission, public diplomacy, and OIG work in Taiwan.




			
 94                    Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   94	
                Legislation Monitored

                Some of the bills reviewed and monitored by OIG legislative staff include:

                •	 H.R. 1268 – Fiscal Year 2005 Emergency Supplemental Appropriations for Iraq 	
                	 and Afghanistan, Tsunami Relief

                •	 H.R. 2862 – Fiscal Year 2006 Appropriations Bill for Science, the Departments 	
                	 of State, Justice, and Commerce, and Related Agencies, including House Report 	
                	 109-118

                •	 H.R. 3057 – Fiscal Year 2006 Appropriations for Foreign Operations, and Export 	
                	 Financing, including Senate Report 109-96

                •	 S. 600 and H.R. 2601– the Foreign Relations Authorization Act, Fiscal Years
                   2006 	and 2007, Providing for the Department of 	State
                                                                       	 and International                	
                   Broadcasting Activities                                    	      	
                •	 S. 1371 – a Bill to Extend the Termination Date of the Office of the Special	
                	 Inspector General of Iraq Reconstruction and to Provide Additional Funds

                •	 H.R. 2863 – Fiscal Year 2006 Appropriations Bill for the Department of Defense

                •	 H.R. 2475 – Fiscal Year 2006 Authorization Bill for Intelligence and Intelligence-	
                	 Related Activities of the U.S. Government

                •	 H.R. 1817 – Fiscal Year 2006 Appropriations Bill for the Department of Home	
                	 land Security




                Implementation of the Government Performance and Results Act and
                the President’s Management Agenda

                One element of the President’s Management Agenda since 2001 is rightsizing.  A
                number of Department initiatives related to rightsizing are under way; including
                reviews by the Office of Rightsizing the USG Presence Overseas (M/R) rightsizing
                reviews, a regionalization working group, State-USAID Joint Management Council
                efforts, and hard-to-fill staffing incentives.  OIG focused on the Department’s prog-
                ress in rightsizing overseas missions and domestic bureaus.  Rightsizing, including
                regionalization and consolidation, was an area of emphasis of all overseas and domes-
                tic inspections.  Overall, OIG found that the Department has made positive but only
                limited progress in address rightsizing issues.  The most recent OMB scorecard gives
                the Department a yellow light in assessing its progress toward key rightsizing mile-
                stones, a judgment with which OIG concurs.  




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		       95 95	
          OIG found numerous untapped regionalization opportunities overseas that could
          reduce costs and security vulnerabilities or improve operations.  Most administra-
          tive functions in Bandar Seri Begawan, for example, could be provided at more
          secure locations and more effectively from a regional center.  Missions with light
          consular workloads often assigned the work to an inexperienced officer on a part-
          time basis, increasing consular vulnerabilities.  OIG recommended that Embassies
          Bandar Seri Begawan, Maseru, Mbabane, and Pretoria and Consulate General Chi-
          ang Mai transfer specific visa functions to different missions or regional centers.

          Duplicative administrative structures continue to exist overseas and in Washington.  
          OIG found redundant administrative structures in Paris and recommended that
          Embassy Paris and the U.S. Missions to the Organization for Economic Coopera-
          tion and Development and the United Nations Educational, Scientific, and Cul-
          tural Organization share a joint management structure.  OIG also recommended
          that a number of like functions be consolidated in Frankfurt, including functions in
          the Vienna Regional Program Office, Paris Financial Service Center, and Embassy
          Berlin to provide more cost-effective training and support and free up limited space
          in Berlin.  OIG noted duplicate ICASS structures in Amman, Paris, Gaborone,
          Harare, and Lilongwe.  

          Although OIG supports Department regionalization efforts, OIG found that re-
          gional center growth has not been planned or managed effectively.  During inspec-
          tions of some of the Department’s largest regional centers, including those in Thai-
          land, Germany, and South Africa, growth occurred in a piecemeal fashion in some
          cases straining existing resources and structures.  All reports also cited weaknesses in
          the National Security Decision Directive (NSDD) 38 process to effectively manage
          regional center growth owing to the inherent inability of chiefs of mission to judge
          institutional implications of hosting regional support services.  At one embassy,
          OIG recommended that the M/R review NSDD-38 authorities with a view to cen-
          tralizing responsibility for initial regional center determinations within the Depart-
          ment.  Although M/R took responsibility for “coordinating” that regional center’s
          staffing, the lack of a Department-wide master plan for regional centers calls into
          question whether such coordination would be effective.  Other agency regional
          center growth adds an additional level of complexity to rightsizing and will likely
          require changes to the NSDD-38 authorities and other legislative changes.




			
 96                     Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   96	
                                                ABBREVIATIONS




            ACS	    American citizen services
            AIT 	   American Institute in Taiwan
            BBG	    Broadcasting of Governors
            CA	     Bureau of Consular Affairs
            CA/EX	  CA’s Office of the Executive Director
            CIO	    Chief Information Officer
            DS	     Bureau of Diplomatic Security
            ECA	    Bureau of Educational and Cultural Affairs
            FISMA	  Federal Information Security Management Act
            HR	     Bureau of Human Resources
            IAA	    Interagency agreements
            ICASS		International Cooperative Administrative Support 		
            	       Services
            INL	    Bureau of International Narcotics and Law 			
            	       Enforcement Affairs
            IRM	    Bureau of Information Resource Management
            ISSO	   Information system security officer
            IT	     Information Technology
            OBO	    Bureau of Overseas Buildings Operations
            OIG	    Office of Inspector General
            ONP	    OpenNet Plus network
            PDNet 	 Public Diplomacy global network
            PERFAR	 The President’s Emergency Plan for				
            	       AIDS Relief
            RIMC	   Regional Information Management Center
            S/GAC	  Office of the U.S. Global AIDS Coordinator
            USIBWC	 International Boundary and Water Commission U.S. 	
            	       and Mexico, U.S. Section
            VAT	    Value-added tax




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   		   97 97	
			
 98       Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005   	
	   98	
                              INDEX OF REPORTING REQUIREMENTS
                          INSPECTOR GENERAL ACT OF 1978, AS AMENDED
	

     REQUIREMENT	                 SUBJECT	                                    	                         PAGE NUMBERS

    Section 4(a)(2)	              Review of legislation and regulations	 	        	                   	          95
    Section 5(a)(1)	              Significant problems, abuses, and deficiencies	 	                   11-55, 79-85
    Section 5(a)(2)	              Significant recommendations for corrective action	                  11-55, 79-85
    Section 5(a)(3)	              Prior significant recommendations unimplemented	                    	     none	
    Section 5(a)(4)	              Matters referred to prosecutive authorities	    	                      	  58-63	
    Section 5(a)(5)	              Information or assistance refused			     	                                none	
    Section 5(a)(6)	              List of reports issued	           	      	      	                       67-69,  89
    Section 5(a)(7)	              Summaries of significant reports	 	      	      	                   11-55, 79-85
    Section 5(a)(8)	              Audit reports–questioned costs	 	        	      	                       	 71, 91	
    Section 5(a)(9)	              Audit reports–funds to be put to  better  use	 	                    	       72, 92	
    Section 5(a)(10)	             Prior audit reports unresolved	 	        	      	                   	       none	
    Section 5(a)(11)	             Significant revised management decisions	       	                   	       none	
    Section 5(a)(12)	             Significant management decisions with which 		                      	       	      	
    	                             OIG disagreed	                    	      	      	                   	       none




Office of Inspector General Semiannual Report to the Congress, April 1, 2005 to September 30, 2005        		          99 99	
                                     Summary of OIG Accomplishments

Financial Results:
Questioned costs
      Issued during the reporting period                                      $ 6,340,000
      Management decision during the reporting period                         $ 0

Recommendations for funds to be put to better use
     Issued during the reporting period                                       $ 0           Fraud, Waste, Abuse or Mismanagement
     Management decision during the reporting period                          $ 0                        of Federal programs
                                                                                                    and resources hurts everyone.
Investigative recoveries                                                      $ 2,177,574
                                                                                                 Call the Office of Inspector General
                                                                                                              HOTLINE
Investigative Results:                                                                                       202/647-3320
Cases opened                                                                   22                         or 1-800-409-9926
Cases closed                                                                   18                  or e-mail oighotline@state.gov
Judicial actions                                                               37               to report illegal or wasteful activities.
Administrative actions                                                         15
Hotline and complaint activity                                                220                      You may also write to
                                                                                                     Office of Inspector General
Reports Issued:                                                                 88                     U.S. Department of tate
                                                                                                        Post Office Box 9778
                                                                                                        Arlington, VA 22219
                                                                                               Please Visit our website at oig.state.gov

                                                                                                  Cables to the Inspector General
                                                                                                 should be slugged “OIG Channel”
                                                                                                     to ensure confidentiality.
                                 Pictured on the front cover: Embassy Singapore


                                 Requests for additional copies of this publication
                                 should be addressed to:
                                           Office of Inspector General
                                            U.S. Department of State
                                            OIG/EX/PPR, Room 810
                                            1700 North Moore Street
                                               Arlington, VA 22209


                                      Department of State Publication 11286
                                           Office of Inspector General
                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General




Office of Inspector General
                              Semiannual Report to the Congress

                              April 1, 2005 to September 30, 2005
